No. 19In the

Supreme Court of the United States
ROBERT T. CHIU,
Petitioner,
v.
JUI-CHIEN LIN,
Respondent.

On Petition for a Writ of Certiorari
to the Court of A ppeal of California ,
Second A ppellate District, Division Two

PETITION FOR A WRIT OF CERTIORARI
Harry M. Barth
Counsel of Record
David R. Calderon
BarthCalderon LLP
333 City Boulevard West Suite 2050
Orange, California 92868
(714) 704-4828
harry@barthattorneys.com
Counsel for Petitioner

290844

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED (RULE 14.1(a))
Is an Agreement whose main purpose is to allow
someone to circumvent and violate Federal law legal and
enforceable under State law?

ii
PARTIES TO THE PROCEEDING
AND RELATED CASES
United States Supreme Court Rules,
Rule 14.1(b)(i)-(iii)
The parties to the proceeding in the court whose
judgment is sought to be reviewed are the parties in the
caption of the case, Jui-Chien Lin and Robert T. Chiu.
The following is a list of all proceedings in other courts
that are directly related to the case in this Court:
1. Jui-Chien Lin v. Robert T. Chiu, et. al., Case No:
KC066675J, the Superior Court of the State of California
for the County of Los Angeles. Judgment entered August
10, 2017.
2. Jui-Chien Lin v. Robert T. Chiu, et. al., Case No:
B285053, the Court of Appeal for the State of California,
Second Appellate District, Division Two. Judgment
affirmed on March 7, 2019.
3. Jui-Chien Lin v. Robert T. Chiu, et. al., Case No:
S255143, in the Supreme Court of California En Banc.
Petition for review denied on June 12, 2019.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED (RULE 14.1(a))  . . . . . . . . . . i
PA RTIES TO THE PROCEEDING A ND
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTIT U TIONA L PROV ISIONS A ND
STATUTES INVOLVED  . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. T H E AGR EEM EN T T O F OR M A
LIMITED LIABILITY COMPANY  . . . . . . . . . 4
B. THE COURT TRIAL . . . . . . . . . . . . . . . . . . . . . . 9
C. THE COURT OF APPEAL OPINION . . . . . . 10
D. CA LIFORNI A SU PREME COURT
DENIAL OF REVIEW  . . . . . . . . . . . . . . . . . . . 11

iv
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . 11
I.

THE COURT SHOULD GRANT THE
W RI T T O DECI DE W H ET H ER
A N AGREEMEN T W HOSE M A IN
PURPOSE IS TO ALLOW SOMEONE
VIOLATE FEDERAL LAW IS LEGAL
A N D EN F ORCE A BL E U N DER
STATE LAW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

II. THE AGREEMENT WAS ILLEGAL
UNDER FEDERAL LAW FOR ITS’
INTENDED PURPOSE (TO OBTAIN
PER M A N EN T R E SI DENC Y I N
THE UNITED STATES) . . . . . . . . . . . . . . . . . . 12
A. RESPONDENT’S “INVESTMENT”
WAS NOT “AT RISK” AS REQUIRED
BY FEDERAL LAW  . . . . . . . . . . . . . . . . . 16
B. THE FAILURE TO SUBMIT THE
AGREEMENT TO THE USCIS
R I S E S T O T H E L E V E L OF
DOCUMENT FRAUD . . . . . . . . . . . . . . . . 20
C. T H E A G R E E M E N T I S A
“SHAM,” THUS MAKING IT AN
ILLEGA L UNENFORCEA BLE
CONTRACT . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
Table of Contents
Page
II. SINCE THE AGREEMENT VIOLATES
FEDERAL LAW, IT IS AN ILLEGAL
C ON T R AC T T H AT CA N NO T BE
ENFORCED IN CALIFORNIA, AND THE
JUDGMENT OF THE COURT OF APPEAL
MUST BE REVERSED . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE COURT OF
APPEAL OF THE STATE OF CALIFORNIA,
S E C O N D A P P E L L A T E DI S T R IC T,
DIVISION TWO, FILED MARCH 7, 2019 . . . . . . . 1a
APPENDIX B — STATEMENT OF DECISION OF
THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA, COUNTY OF LOS ANGELES
FOR THE EA ST DISTRICT, POMONA
COURTHOUSE, DATED AUGUST 10, 2017  . . . . 15a
APPENDIX C — DENIAL OF REHEARING OF
THE SUPREME COURT OF CALIFORNIA,
FILED JUNE 12, 2019 . . . . . . . . . . . . . . . . . . . . . . . 20a
APPENDIX D — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21a
APPENDIX E — AGREEMENT TO FORM
A CALIFORNIA LIMITED LIABILITY
COMPANY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Abramson v. Juniper Networks, Inc.,
(2004) 115 Cal.App.4th 638  . . . . . . . . . . . . . . . . . . . . 27
Brenner v. Haley,
(1960) 185 Cal.App.2d 183  . . . . . . . . . . . . . . . . . . 27, 28
Casa Del Caffe Vergnano S.P.A. v.
Italflavors, LLC,
816 F.3d 1208 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . 23
Kashani v.
Tsann Kuen China Enterprise Co., Ltd.,
(2004) 118 Cal.App.4th 531 . . . . . . . . . . . . . . . . . . 27, 28
Lee On v. Long,
(1951) 37 Cal.2d 499, cert. denied,
342 U.S. 947 (1952)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
MKB Management, Inc. v. Melikian,
(2010) 184 Cal.App.4th 796 . . . . . . . . . . . . . . . . . . . . . 27
Smith v. Simmons,
(E.D.Cal.2009) 638 F.Supp.2d 1190  . . . . . . . . . . . . . 27
Wong v. Tenneco,
(1985) 39 Cal. 3d 126, 1335 . . . . . . . . . . . . . . . . . . . . . 28
Yoo v. Jho,
(2007) 147 Cal.App. 4th 1249 . . . . . . . . . . . . . . . . 27, 28

viii
Cited Authorities
Page
FEDERAL ADMINISTRATIVE IMMIGRATION
PRECEDENT DECISIONS
In Re Izummi,
22 I&N Dec. 169 (Comm. 1998) . . . . . . . . . . . . . passim
STATUTES
8 U.S.C.A. § 1153(5)(C)(1)  . . . . . . . . . . . . . . . . . . . . . . . . 14
8 U.S.C.A. § 1324c (codification of INA § 274c)  . . . 21, 24
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
8 C.F.R. § 204.6(e) . . . . . . . . . . . . . . . . . . . . . . 13, 18, 27, 28
8 C.F.R. § 206.6(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Civil Code § 1550  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 27
Civil Code § 1596  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Civil Code § 1598  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
CONSTITUTIONAL PROVISIONS
United States Constitution, Article VI, Clause 2 . . . 4, 29

ix
Cited Authorities
Page
MISCELLANEOUS AUTHORITIES
Judicia l Counci l of Ca l i for nia Civ i l Ju r y
Instructions (CACI) No. 302 . . . . . . . . . . . . . . . . 25, 27
“Investment Scams Exploit Immigrant Investor
Program.” Investor Alert and Bulletin (2013) . . . . . . 2
USCIS Memorandum, “EB-5 Adjudications Policy”
PM-602-0083 (May 30, 2013) . . . . . . . . . . . . . . . . . . . 13
Quartzburg Gold LP (USCIS Administrative
Appeals Office decision) Decision Number
WAC1290511771  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
Petitioner, Robert T. Chiu, an individual, respectfully
asks that a writ of certiorari issue to review the judgment
and Opinion of the California Court of Appeal, Second
Appellate District, Division Two, filed on March 7, 2019,
and then granting certiorari, vacating the judgment of
the California Court of Appeal, and remanding the case
for further proceedings below consistent with the Court’s
ruling and entry of judgment on the cause of action for
breach of contract in favor of Petitioner, Robert T. Chiu.
INTRODUCTION
Congress established the EB-5 Visa Program in 1990
to bring new investment capital into the country and create
new jobs for U.S. Workers. The EB-5 Program is based
on our nation’s interest in promoting the immigration of
people who invest their capital in new, restructured, or
expanded businesses and projects in the United States
and help create or preserve needed jobs for U.S. workers
by doing so. The Agreement at the center of this case is
not an investment. It is an illegal redemption agreement,
that is specifically prohibited from use as support for
the issuance of an EB-5 visa, and a subsequent grant of
permanent residency in the United States.
Since the inception of the prog ram in 19 9 0,
approximately 85% of EB-5 visas and “green cards” have
been issued to Chinese nationals. California is home to
hundreds of thousands of Chinese-Americans, many of
whom still have deep ties to their homeland, people in their
homeland, and a strong desire to have friends and relatives
join them here in the United States where they can enjoy
heightened personal and economic freedom and have
access to our world renowned university system (such as

2
was the case here). Therefore, issues related to the EB-5
visa program are of particular interest to the ChineseAmerican community, as well as Chinese nationals who
continue to aggressively seek opportunities to obtain an
EB-5 visa, and subsequent permanent residency. Issues
regarding Chinese nationals, the Chinese government,
immigration from China, and overall immigration policy
are front and center in our national debate.
There has been rampant fraud in the EB-5 program
over the years. In 2013, the U.S. government’s securities
enforcement agency published an Investor Alert and
Bulletin officially titled “Investment Scams Exploit
Immigrant Investor Program.” The alert highlighted
multiple scams and lawsuits in the EB-5 area. Since then,
the problem has not stopped, and has actually become
worse. In the last three years, the U.S. Securities and
Exchange Commission has brought hundreds of millions
of dollars’ worth of actions against perpetrators of EB-5
fraud, including a $350 million assets freeze against
a Vermont ski resort, a $79 million charge against an
unregistered Boca Raton, Florida broker-dealer, a
$125 million asset freeze against a Seattle skyscraper
developer, a $68 million judgment against a U.S. energy
company, and an $89 million fraud case against a Chicago
immigration attorney. EB-5 visa fraud has become
something close to a national crisis.
The Court should grant review to decide whether
or not the main purpose of the “Agreement” that is at
the heart of this case, which Federal law clearly states
is illegal for use in support of an EB-5 petition, should
be considered legal and enforceable under State law,
including in California, which is at the center of many of
these controversies.

3
Because of the popularity, use, and rampant misuse
of the EB-5 program amongst businesspeople, legal
practitioners, and petitioners (many of whom are Chinese
and/or Taiwanese nationals like the Appellant in this case),
review of the lower court’s decision is necessary to decide
an important legal question that contains an issue of legal
and public policy significance likely to affect the rights of
other parties in other cases, and which has a far reaching
effect on regulated industries, specifically the practice
of immigration law. As such, this matter involves a legal
issue of continuing public interest which can be clarified
and extremely instructive to all of those involved with the
EB-5 process, especially EB-5 applicants, businesspeople,
and immigration law specialists and practitioners. It
also gives this Court the opportunity to discourage
conduct seeking to circumvent and/or violate federal
law through the use of documents and agreements that
would otherwise be legal under State law. As such, it is
an appropriate vehicle for the Court to provide guidance
on the issue presented.
OPINIONS BELOW
The Opinion of the California Court of Appeal, which
was unpublished, was issue on March 7, 2019 and is
attached as Appendix A. The California Supreme Court’s
one page order denying review on June 12, 2019 is attached
as Appendix B. The trial court’s Statement of Decision is
attached as Appendix C.
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a). The decision of the California Court

4
of Appeal for which petitioner seeks review was issued
on March 7, 2019. The California Supreme Court order
denying Petitioner’s timely petition for discretionary
review was filed on June 12, 2019. This Petition is filed
within 90 days of the California Supreme Court’s denial
of discretionary review, under Rules 13.1 and 29.2 of this
Court.
CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED
United States Constitution, Article VI, Clause 2
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all treaties
made, or which shall be made, under the authority of the
United States, shall be the supreme law of the land; and
the judges in every state shall be bound thereby, anything
in the Constitution or laws of any State to the contrary
notwithstanding.
This matter also has several Federal and California
statutory provisions, regulations, and court rules that
are relevant to this petition. They are reprinted in full in
Appendix D.
STATEMENT OF THE CASE
A. THE AGREEMENT TO FORM A LIMITED
LIABILITY COMPANY
Respondent Jui-Chien Lin signed an “Agreement
to Form a Limited Liability Company” with Petitioner
Robert T. Chiu and his former business partner Charles

5
Cobb on September 18, 2004. (1 CT 000217 – 000220; 1
RT 19-20; 2 RT 59; 3 RT 133; Appendix E; all references
to “CT” refer to the “Clerk’s Transcript,” which consists
of the case file in the California Superior Court action.)
The Agreement was brokered by Respondent’s
immigration attorney, Cecilia Yu. (1 RT 13, 23; 2 RT 110;
all references to “RT” refer to the “Reporter’s Transcript,”
which is the stenographic record of the proceedings
during the trial of the action in the Los Angeles County
California Superior Court.) The “Agreement” clearly and
unambiguously states the following:
(1) That “Investor [Respondent] wishes to invest to the
LLC the amount of One Million Dollars ($1,000,000.00)
for the purpose of obtaining permanent residency in the
United States for himself, and immediate member(s) of
his family under the Investor provision of Immigration
and Nationality Law of the United States.” (1 CT 000217.)
Respondent’s main, primary, and overriding goal in
this transaction was to obtain permanent residency or
“green cards” for him and family. (1 RT 21-23, 25; 2 RT
82 - 83, 109 – 110; Appendix E, page 1, ¶ 3.) There is no
dispute that this was accomplished. Respondent and his
family obtained their “green cards,” and Respondent’s
wife and children are full time residents of the United
States with the future opportunity to apply for the sacred
right of citizenship. Respondent’s son graduated from
UC Riverside and works as a real estate agent in Irvine.
Respondent’s daughter graduated from UC San Diego
and works in the health care industry. (3 RT 141 - 143.)
(2) “All net profits derived from the business of the
LLC shall be considered the management fee of the

6
franchisees. Franchisees shall also bear the loss of the
business of the LLC, if any. Investor [Respondent] shall
have no right to claim any of the revenues derived from the
business of the LLC…Franchisees [Petitioner and Cobb]
shall be responsible for the taxes of the LLC, including
but not limited to the tax based on ordinary income of the
LLC.” (1 CT 000218.)
It was not disputed that the Agreement gave Petitioner
and Cobb all of the “incidents of ownership” control, and
management of the business, including the opportunity for
profit, and the risk of loss. This also included the unilateral
authority to dispose of the business. However, Petitioner
and Cobb kept operating the business, at great personal
sacrifice and loss, so Respondent and his family could
receive their “green cards.” (1 RT 24, 27, 28; 2 RT 66 – 69,
81 – 82, 109 – 110; Appendix D, page 2, ¶ 4.) Ultimately,
Petitioner and Cobb lost $770,000.00 of their own funds
keeping the business open until Respondent and his family
received their green cards.
(3) “…At the end of the five (5) years [sic] term,
Franchisees [Petitioner and Cobb] are obligated to
purchase all of Investor’s [Respondent’s] interest for a
fixed price of $1,000,000.00.” (1 CT 000218; Appendix
E, page 2, ¶ 3.) There was obviously no dispute as to
the meaning of the term “obligated.” It does not mean
“optional.” Chiu and Cobb were “obligated” to buy back
Respondent’s interest in exchange for $1,000,000.00. (1
CT 000218; 2 RT 84, 86 - 87.) It is the reason Respondent
filed a lawsuit and the basis of the Statement of Decision
and Judgment by the Superior Court and Opinion by the
Court of Appeal.

7
(4) “The LLC shall be managed by the Franchisees
[Petitioner and Cobb].” (1 CT 000218.) Again, it is
undisputed that the Respondent agreed to give Petitioner
and Cobb complete control over the management of the
LLC. (1 RT 24, 27, 28; 2 RT 66 – 69, 81 – 82, 109 – 110;
Exhibit 1, page 2, ¶ 6.)
(5) “Franchisees [Chiu and Cobb] agree to indemnify
and hold Investor [Respondent] and the property of
Investor [Lin], including the Restaurant, free and
harmless from any Liability for any debts, obligations, or
claims arising for [sic] or connected with the operation of
the Restaurant managed by Franchisees [Petitioner and
Cobb].” (1 CT 219; Exhibit 1, page 3, ¶ 8.)
On the other hand, Petitioner has been left “holding
the bag” for everything else, including the failed business
that Respondent supposedly “invested” in as the basis for
his family’s application for permanent residency, which
Petitioner and Cobb kept operating for 6 years to insure
the subsequent approval of the same. Respondent never
intended to be an “owner” of the business as contemplated
by United States Immigration Law. He merely wanted to
be a “creditor with benefits,” with the “benefits” being a
chance to apply for permanent residency in the United
States for himself and his family. There was no claim, and
there was no evidence, that Respondent is or was subject
to any claim, or anticipates being liable for, any “debts,
obligations, or claims” arising from or connected to the
operation of the restaurant. This includes any claims
from the buyers of the restaurant, any vendors of the
restaurant, or any taxing authorities. As will be argued
later on, this lack of “risk” is what makes this Agreement
illegal pursuant to United States Immigration Law, and

8
contrary to the law and public policy of the United States
and the State of California.
Immigration attorney Cecilia Yu (hereinafter referred
to as “Yu”) contacted Petitioner on behalf of Respondent
for the purpose of using Chiu and Cobb, and their expertise
in the restaurant industry, as a vehicle for Respondent
to obtain an EB-5 investor visa, and later, permanent
residency in the United States. (1 RT 13, 23; 2 RT 110.)
Respondent and Yu knew each other socially and did
business together on another EB-5 transaction on behalf
of another of Yu’s immigration clients, who also happened
to be a personal friend of Respondent’s. (1 RT 5; 2 RT
82-83.) It is undisputed that Respondent was represented
by Yu throughout the entirety of this transaction. Yu, an
experienced attorney, served as Respondent’s counsel,
and as such, she negotiated the terms of this transaction
on his behalf. She also handled all aspects of Lin’s EB-5
petition and “green card” application. (2 RT 127, 130, 144.)
She continued to serve as Respondent’s attorney and agent
through the filing and litigation of the instant action. (2 RT
81-87.) The fact that Petitioner was not an attorney was
not in dispute, and there was no evidence that Petitioner
or Cobb had any idea that the “Agreement” was illegal at
the time it was made. (1 RT 170; 2 RT 59.)
Petitioner
and Cobb also relied on Yu to some extent to deal with
the legalities of the Agreement, and she prepared the
other documents pertaining to the transaction, such as
the LLC formation documents. (1 RT 15, 17, 25 – 27; 2 RT
59.) Petitioner and Cobb were not formally represented by
counsel in this transaction. (1 RT 27.) The only attorney
that was involved with this transaction was Yu.

9
B. THE COURT TRIAL
Respondent filed his lawsuit against Petitioner, his
wife Anita, Charles Cobb, The Anita L. Chiu Qualified
Residence Trust, the Robert T. Chiu Qualified Personal
Residence Trust, and Golden Restaurant, LLC (collectively
referred to as the “Defendants”) in the California Superior
Court on February 21, 2014. The original Complaint sought
$702,000.00 in damages, “…plus interest from November
17, 2012,” the date of the last payment to Respondent by
Petitoner, primarily for breach of contract among other
issues. (1 CT 000012 - 000027.)
The case proceeded to trial before the Honorable Dan
T. Oki on May 18, 2017 and concluded on May 22, 2017.
After 3 days of trial, Judge Oki rendered his tentative
decision in Respondent’s favor on May 22, 2017, and
against Petitioner only, on the cause of action for breach
of contract, awarding Respondent $702,000.00 in damages
and interest at the legal rate from November 17, 2012
forward. He found for in favor of all of the Defendants,
including the Petitioner, on all of the remaining causes of
action. (3 RT 256 – 259.)
In its’ Statement of Decision, the Superior Court
stated that the Agreement had two purposes. The first
was to qualify Respondent and his family for EB-5 visas
and subsequent permanent residency in the United States,
and the second purpose was to provide $1,000.000.00
to fund a new fast food restaurant business with the
promise of repayment in five (5) years along with the
payment of two (2) $40.000.00 dividend payments along
the way. The court did not find either of these purposes
unlawful, despite the later finding that the “buyback”

10
provision in the Agreement would likely disqualify the
EB-5 application under applicable federal immigration
law. (8 CT 001853 - 001854.)
Petitioner filed his Notice of Appeal from the Judgment
against him on the cause of action for breach of contract
on September 11, 2017. (8 CT 001861 - 001863.)
C. THE COURT OF APPEAL OPINION
In the state Court of Appeal, Petitioner argued
that the Agreement (1) was illegal under Federal law
for the purpose of supporting a petition or application
to obtain permanent residency (thus making it illegal
under California law); (2) the respondent committed
“document fraud” under Federal law by failing to submit
the Agreement with his application or petition; and, (3)
the Agreement itself was a “sham.” (AOB pp. 26-50;
references to “AOB” are to the Appellant’s Opening Brief
on appeal.)
On March 7, 2019, the Court of Appeal issued its’
Opinion affirming the Judgment of the Superior Court in
all respects. The Opinion became final on April 6, 2019.
Appendix A. A petition for rehearing was not filed. It is
contended that the Court of Appeal mistakenly applied
California state law in a way that made the judicial system
complicit in enforcing an illegal Agreement that clearly
violated Federal immigration law and that circumvents,
and even preempts, Federal law and policy.

11
D. CALIFORNIA SUPREME COURT DENIAL OF
REVIEW
Petitioner sought discretionary review of the issue
in the California Supreme Court, making the same
argument and citing the same authorities that were made
before the Court of Appeal. (PR pp. 11-28; references to
“PR” are to Petitioner’s Petition for Review filed with the
California Supreme Court.) The California Supreme Court
summarily denied review without opinion. Appendix B.
REASONS FOR GRANTING THE PETITION
I.

THE COURT SHOULD GRANT THE WRIT TO
DECIDE WHETHER AN AGREEMENT WHOSE
MAIN PURPOSE IS TO ALLOW SOMEONE
VIOLATE FEDERAL LAW IS LEGAL AND
ENFORCEABLE UNDER STATE LAW.

The considerations that govern the Court’s exercise
of its certiorari jurisdiction are concisely set forth in the
Court’s Rule 10, which states, in pertinent part, as follows:
“Review of a writ of certiorari is not a matter
of right, but of judicial discretion. A petition
for a writ of certiorari will be granted only for
compelling reasons. The following although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of
reasons the Court considers:
(c) a state court…has decided an important
question of federal law that has not been, but
should be, settled by this Court, or has decided

12
an important federal question in a way that
conflicts with relevant decisions of this Court.
In this case, the California Court of Appeal took
an Agreement that was clearly illegal under Federal
immigration law for its’ main intended purpose, and
incorrectly applied California state law in a way that
allows people to circumvent, preempt, and usurp wellestablished Federal law (which should be controlling on
this issue). See, United States Constitution, Article VI,
Clause 2.
II. THE AGREEMENT WAS ILLEGAL UNDER
FEDERAL LAW FOR ITS’ INTENDED PURPOSE
(TO OBTAIN PERMANENT RESIDENCY IN THE
UNITED STATES).
The United States Immigration and Naturalization
Service (USCIS) explained Congress’ original purpose
in enacting the EB-5 program in a policy memorandum:
Congress established the EB-5 Program in
1990 to bring new investment capital into the
country and create new jobs for U.S. Workers.
The EB-5 Program is based on our nation’s
interest in promoting the immigration of people
who invest their capital in new, restructured, or
expanded businesses and projects in the United
States and help create or preserve needed jobs
for U.S. workers by doing so.
In the EB-5 program, immigrants who invest
their capital in job creating businesses and
projects in the United States receive conditional

13
permanent resident status in the United States
for a two year period. After two years, if the
immigrants have satisfied the conditions of the
EB-5 Program and other criteria of eligibility,
the conditions are removed and the immigrants
become unconditional law ful permanent
residents of the United States. Congress
created the two-year conditional status period
to help ensure compliance with the statutory
and regulatory requirements and to ensure that
the infusion of investment capital is sustained
and the U.S. jobs are created.
The 1990 legislation that created the EB-5
Program envisioned lawful permanent resident
status for immigrant investors who invest in
and engage in the management of job-creating
commercial
enterprises.
See, USCIS Memorandum, “EB-5 Adjudications Policy,’
PM-602-0083 (May 30, 2013) at 1-2 (a true and correct copy
of this memorandum is located at 3 CT 000539 – 000565.)
Invest me a ns t o cont r ibut e c apit a l. A
contribution of capital in exchange for a
note, bond, convertible debt, obligation, or
any other debt arrangement between the
alien entrepreneur and the new commercial
enterprise does not contribute a contribution
of capital for the purposes of this part.
See, 8 C.F.R. § 204.6(e) (a true and correct copy of this
regulation is part of the Clerk’s Transcript at 3 CT 000567
– 000573 with the specific definition of the word “invest”

14
located at 3 CT 000568. It is also attached as part of
Appendix D. See also, 8 U.S.C.A § 1153(5)(C)(1) for the
amount of “capital” to be invested. It is also attached as
part of Appendix D.
Per the terms of the Agreement in this case, Lin
purportedly purchased a 30% interest in a “California
Limited Liability Company” to be formed for “One Million
Dollars ($1,000,000.00) for the purpose of obtaining
permanent residency in the United States for himself,
and immediate member(s) of his family, under the investor
provision [sic] of Immigration and Nationality Law of the
United States.” (1 CT 000217; Appendix E, page 1, ¶ 4.)
If the Agreement stopped there, it would have been
perfectly legal as a “qualifying investment” under Federal
law. However, the Agreement had several other provisions
that convert what looks to be a visa and “green card”
qualifying “investment” into a disqualifying “loan” with
absolutely no evidence that Plaintiff’s capital was ever
“at risk” as is required to qualify for an EB-5 immigrant
investor visa, and later permanent residency, under
United States immigration law. (1 CT 000217 – 000220; 3
RT 211 – 214; Appendix E.)
The leading precedent decision and controlling
authority on the issue of whether or not an “infusion
of capital” is actually an “investment” under United
States Immigration law is the decision issued by the
Administrative Appeals Office (AAO) of the United States
Customs and Immigration Service (USCIS) entitled In Re
Izummi 22 I&N Dec. 169 (Comm.1998) (a true and correct
copy of this decision is contained in several volumes of the
Clerk’s Transcript, including 3 CT 000575 – 00060.)

15
As testified by Petitioner’s immigration expert,
Angelo Paparelli at trial, In Re Izummi is a “precedent
decision” that one that has the effect of being “made” by
the Attorney General of the United States and binding
upon the USCIS. (3 RT 221.)
The classification of In Re Izummi as a “precedent
decision” was also agreed to by Respondent’s immigration
law expert Howard Hom. (3 RT 176-177.) Mr. Papparelli
is a leading figure nationally in immigration law and
specifically on issues relating to EB-5 investments and
visas. (3 RT 206 – 209; Mr. Paparelli’s Curriculum Vitae
or Resume is located at 3 CT 000608 – 000610, and his
other credentials are discussed at 2 CT 000454 - 000456.)
Also, unlike Respondent’s immigration law expert
Howard Hom, Mr. Paparelli was unequivocal in his opinion
that Respondent’s purported “investment” was not “at
risk” and that the Agreement was illegal for the benefits
sought under United States Immigration Law. (3 RT 205
– 232.) This in turn, as will be explained later, makes the
Agreement illegal and unenforceable pursuant to Federal
law, and California law and public policy.
In Re Izummi stands for the proposition that to enter
into a redemption agreement (such as the “agreement”
at issue here) at the time of making an “investment”
evidences a preconceived intent to unburden oneself of
the “investment” as soon as possible after unconditional
permanent resident status is attained.
This is conceptually no different than a situation in
which an alien marries a U.S. citizen and states, in writing,
that he or she will divorce him or her in two years. For the

16
alien’s money to truly be at risk, the alien (Respondent)
cannot enter into a partnership knowing that he already
has a willing buyer in a certain number of years, nor can he
be assured that he will receive a certain price. Otherwise,
the arrangement is loan, albeit an unsecured one. See, In
Re Izummi 22 I&N Dec. 169 (Comm.1998). (3 CT 000575
– 000606.) (3 RT 213.)
In Re Izummi could not be any more “on point” when
it comes to the Agreement at the heart of this matter. The
bottom line is that the Agreement turns what appears to
be an “investment” into a “redemption agreement.” This
makes the Agreement illegal, void, and otherwise against
public policy, as it was entered into by the Respondent for
the apparent purpose of obtaining “permanent residency”
in a manner that violates United States immigration law
(by way of a undisclosed side transaction undisclosed,
and likely shielded from, the authorities), and as such, it
is a “sham,” and pursuant to Federal and California law,
it should not be enforced. (In Re Izummi 22 I&N Dec.
169 (Comm.1998); 3 CT 000575 – 000606; 2 CT 000458 –
000459; see also, Civil Code §§ 1550, 1596 and 1598; 3 RT
209 – 223.)
A.

RESPONDENT’S “INVESTMENT” WAS NOT
“AT RISK” AS REQUIRED BY FEDERAL
LAW.

In order to qualify as an investment in the EB-5
program, the immigrant investor’s capital must actually
be placed “at risk” for the purpose of generating a return
and evidence of such risk must accompany the EB-5
petition. While the law does not specify what the degree
of risk must be, but the entire amount of capital must

17
be at risk to some degree. If the immigrant investor is
guaranteed the return of a portion of his or her investment,
or is guaranteed a rate of return on a portion of his or
her investment, then that portion of the capital is not “at
risk.” (In Re Izummi 22 I&N Dec. 169 (Comm.1998) (3
CT 000575 – 000606.)
For the capital to be considered “at risk,” there must
be a risk of loss and a chance for gain. In In Re Izummi,
the immigrant investor’s capital was deemed to not be
“at risk’ because the investment included a “redemption
agreement” that protected against the risk of loss
of the capital, and constituted an impermissible debt
arrangement under 8 C.F.R. § 206.6(e) because it was
no different from the risk any business creditor incurs.
In addition, an investment with a promise to return any
portion of the immigrant investor’s minimum required
capital would also not be considered “at risk” capital. If
an agreement states that the investor may demand return
of, or redeem some portion of capital after obtaining
conditional lawful permanent residence status, that
portion of capital is also not at risk. (In Re Izummi 22
I&N Dec. 169 (Comm.1998) 3 CT 000575 – 000606.)
Respondent’s infusion of capital was never “at risk”
as contemplated by In Re Izummi, which is required
under United States Immigration law, and also carried a
“guaranteed return’, which was also discussed in the case.
“All Profits derived from the business of the LLC shall
be considered the management fee of the Franchisees
[Petitioner and Cobb]. Franchisees [Petitioner and Cobb]
shall also bear the risk of loss of the business of the LLC,
if any…LLC agrees to pay Investor [Lin] the sum of
$40,000.00 per year to be paid quarterly, during 4th and
5th year [sic] of this agreement…

18
Franchisees [Petitioner and Cobb] shall be responsible
for all taxes of the LLC, including but not limited to the
tax based on ordinary income of the LLC. (See, 1 CT
000217 - 000220; Exhibit 1; 8 C.F.R. § 204.6(e); and, In
Re Izummi 22 I&N Dec. 169 (Comm.1998) 3 CT 000575
– 000606.) These provisions removed the “risk” element
from Respondent’s infusion of capital.
Adding further credence to the fact that Respondent’s
capital was not “at risk” is the following language:
“Franchisees agree to [i]ndemnify and hold Investor
[Respondent] and the property of Investor [Respondent]…
free and harmless from all [l]iability for any debts
obligations, or claims arising for or connected with the
operation of the Restaurant…” (1 CT 219; Exhibit 1; 8
C.F.R. § 204.6(e); and In Re Izummi 22 I&N Dec. 169
(Comm.1998).
When coupled with the language above, this removed
all of the “risk” from Respondent’s infusion of capital.
According to face of the Agreement, and as testified by
Mr. Paparelli at trial, these provisions removed the legally
required risk from Respondent’s alleged “investment.” As
Mr. Paparelli clearly testified, the Agreement in this case
did not have a possibility or chance of gain or a risk of loss.
Therefore, the “investment” failed to be “at risk, and was
illegal for its’ stated purpose. (1 CT 000217 – 000220; 7 CT
001411 – 001412; 3 RT 212 – 215, 221 – 222.) Again, as will
be explained later, this means that the illegal Agreement
did not have a lawful object or purpose, and it should not
be enforceable or enforced pursuant to Federal law and
California law and public policy. (3 RT 213 – 214.)

19
Mr. Hom also attempted to distinguish In Re Izzumi
on the basis that Respondent paid his money up front
and the Izummi applicants paid their money over time.
Mr. Paparelli stated that this was not a valid distinction.
(3 RT 212.)
Contrary to Mr. Hom’s assertions, Mr. Paparelli
stated that the USCIS does not apply In Re Izummi only
in cases where the minimum required investment amount
is not fully paid; rather, USCIS applies the decision to
cases where the investment amount has been paid in full.
For example, see the USCIS Administrative Appeals
Office decision, Quartzburg Gold LP, WAC1290511771
(applying In Re Izummi where the petitioner had invested
$500,000 into the EB-5 new commercial enterprise, and
finding that a sell option constituted nothing more than an
ineligible loan and not an at-risk contribution of capital).
(7 CT 001482 – 001487.)
In addition to agreeing that In Re Izummi is a
“precedent decision,” Mr. Hom also agrees with Mr.
Paparelli that In Re Izummi requires that, in order for
capital to be “at risk,” there has to be a risk of loss and
a chance for gain. (3 RT 176 – 177, 181.) That being said,
throughout the rest of his testimony, Mr. Hom took great
pains to try to distinguish In Re Izummi from the facts
of this case, often trying to argue that the opinions of
“commentators” should have greater weight than a wellestablished “precedent decision” that USCIS employees
and adjudicative bodies are required to follow. (3 RT 182
– 184.)
However, according to Mr. Paparelli, Mr. Hom’s
characterization of In Re Izummi, as “distinguishable”

20
from the facts of this case is completely inapplicable here.
(3 RT 212 – 213, 220 – 222.)
No matter how tortured the attempt to distinguish
In Re Izummi’s requirement that the investment be “at
risk” from the facts of his case, it is clear that In Re
Izummi applies to this “investment,” and that the alleged
“investment” in this case was not “at risk”. And if the
Agreement would have been either shared with USCIS,
or uncovered by USCIS, it is clear that they would have
deemed the Agreement illegal for its’ intended purpose
and rejected Respondent’s visa petition and his subsequent
application for permanent residency on behalf of himself
and his family.
B. T H E FA I L U R E T O S U B M I T T H E
AGREEMENT TO THE USCIS RISES TO
THE LEVEL OF DOCUMENT FRAUD.
During cross-examination, Mr. Hom admitted that
he only reviewed portions of the deposition transcripts of
Yu and Lin as selected for him by counsel when forming
his opinions regarding the EB-5 application that was
prepared by Yu and signed by Respondent under penalty
of perjury. (3 RT 166.) Mr. Hom went on to opine that the
EB-5 application was “lawful.” (3 RT 166.)
On the other hand, Mr. Paparelli testified that
he reviewed Yu’s deposition, the I-526 petition and
attachments (the EB-5 application), and the I-496
application for permanent residency prior to forming his
opinions in this case. (3 CT 000642 – 000696; 4 CT 000697
– 000849; 3 RT 210 – 211.)

21
The petition and the application both require the
applicant to certify, under penalty of perjury, that the
information contained within the petition and application,
and the evidence submitted in support of those documents,
is true and correct.
The petition and application also require the attorney
preparing the documents to certify that the petition and
application are “...based upon all information on which
I have knowledge.” Both documents were signed under
penalty of perjury by Yu and Lin. (3 CT 000648, 000651;
2 RT 148 - 149.)
There is an affirmative duty under 8 U.S.C.A. § 1324c
to disclose the clearly relevant and material Agreement
as part of the I-526 petition and therefore, Plaintiff
violated immigration law at the time the I-526 petition
was filed, thus making him, and his family, ineligible for
the approval of his investor petition, and his family’s grant
of permanent residency, which they still enjoy today.
Therefore, based on his review, Mr. Paparelli opined
that the failure to submit the Agreement with either the
EB-5 application or the application for permanent residency
was an omission of a material fact that was relevant to
the consideration of the immigration benefit sought (the
investor visa and subsequent permanent residency). See, 8
U.S.C.A. § 1324c (Penalties for Document Fraud). (A true
and correct copy of the statute is located at 7 CT 001445
– 001447 and as part of Appendix D.) (3 RT 215 – 216.) In
Mr. Paparelli’s opinion, this omission rose to the level of
“document fraud” pursuant to 8 U.S.C.A. § 1324c. (3 RT
215 – 216.) In Mr. Paparelli’s further opinion, if the USCIS
had known about the Agreement, which constituted a “side

22
transaction,” they would have denied the EB-5 petition and
the application for permanent residency. (3 RT 215 – 216,
231.) Therefore, Respondent and Yu had an affirmative
duty to include the Agreement with the EB-5 petition and/
or the later application for permanent residency.
The withholding from USCIS of the Agreement in
this case led directly to the agency’s unwittingly mistaken
approval of Respondent’s EB-5 visa petition, the grant of
adjustment of status to conditional permanent residence,
and the subsequent removal of conditions on Plaintiff’s
“green card” resident status. (3 RT 215 – 217.)
Mr. Paparelli also opined that this type of material
omission, or document fraud, if discovered, would
have subjected Respondent and his family to removal
proceedings and the preclusion of readmission to the
United States for a period of five (5) years. (3 RT 219 – 220.)
Therefore, Respondent (through his attorney Yu)
had ample motive to willingly keep the Agreement out
of the hands of the USCIS as it would have been a basis
for the denial of his EB-5 petition and/or the denial of an
adjustment to permanent residency status on behalf of
himself and his family. This is further evidence that the
Yu (Respondent’s agent) knew that the Agreement was
illegal and otherwise had an improper purpose.
It is clear that the Agreement had an improper
purpose (the circumvention of Federal immigration law
and policy) and was used in manner that violated Federal
law. This makes it illegal and unenforceable under both
Federal law and California law and public policy.

23
C.

T H E A G R E E M E N T I S A “ S H A M ,”
THUS MAK ING IT A N ILLEGA L
UNENFORCEABLE CONTRACT.

On the issue of whether or not the Agreement is a
“sham” or otherwise illegal and unenforceable, Casa Del
Caffe Vergnano S.P.A. v. Italflavors, LLC 816 F.3d 1208
(9th Cir. 2016) is instructive and applicable to the present
case. (A true and correct copy of the case is located at 7
CT 001617 – 001624, 8 CT 001625 – 001632.)
There, the Ninth Circuit Court of Appeals determined
that a commercial contract intended solely for the purposes
of obtaining a U.S. Visa and a companion hold harmless
agreement should be read as one “agreement.” Thus, the
Court refused to enforce an arbitration provision in the
commercial contract, stating in relevant part:
Looking to their external expression of intent,
the parties did not manifest their intent to be
bound by the Commercial Contract containing
the arbitration clause. Reading the Commercial
Contract and the contemporaneously executed
Hold Harmless Agreement side by side, it is
plain that the Commercial Contract was nothing
more than a sham agreement Designed as a ploy
to aid Hector Rabellino’s visa application.
…
Moreover, it is appropr iate to read the
Commercial Contract and the Hold Harmless
Agreement together because:

24
[w]hat appears to be a complete and binding
integrated Agreement may be…a sham…or it
may be illegal. Such Invalidating clauses need
not and commonly do not appear on the face of
the writing.
Restatement (Second) of Contracts § 214 cmt.c.
(Emphasis added.)
…
T he decla rat ion i n the Hold Ha r m less
Agreement signed contemporaneously with
the Commercial Contract proves that the latter
was a mere sham to help Hector Rabellino
obtain a visa. Thus, we conclude that the
Commercial Conract was not a contract and is
thus unenforceable.
The withholding from USCIS of the Agreement in
this case led directly to the agency’s unwittingly mistaken
approval of Respondent’s EB-5 visa petition, the grant of
adjustment of status to conditional permanent residence,
and the subsequent removal of conditions on Respondent’s
“green card” resident status. (3 RT 215 – 217.)
Since there was an affirmative duty under 8 U.S.C.A.
§ 1324c to disclose the clearly relevant and material
Agreement as part of the I-526 petition and, Respondent
violated immigration law at the time the I-526 petition was
filed, thus making him, and his family, ineligible for the
approval of his investor provision, and his family’s grant
of permanent residency, which they still enjoy today.

25
It is clear that the Agreement had an improper purpose
(the circumvention of Federal immigration law and policy)
and was used in manner that violated Federal law. This
makes it illegal and unenforceable under California law
and public policy, and as such the judgment for breach of
contract against Petitioner must be reversed.
II. SINCE THE AGREEMENT VIOLATES FEDERAL
LAW, IT IS AN ILLEGAL CONTRACT THAT
CANNOT BE ENFORCED IN CALIFORNIA, AND
THE JUDGMENT OF THE COURT OF APPEAL
MUST BE REVERSED.
Civil Code § 1550 states as follows:
ESSENTIAL ELEMENTS OF CONTRACT. It is
essential to the existence of a contract that there should
be:
(1) Parties capable of contracting;
(2) Their consent;
(3) A lawful object; and,
(4) A su f f icient cause or considerat ion.
(Emphasis added.)
See also, California Civil Jury Instructions, CACI No.
302. The absence of any of these elements will preclude
any action for breach of the purported contract.
Civil Code § 1596 states that the object of a contract
must be lawful when the contract is made, and possible

26
and ascertainable by the time the contract is performed.
Civil Code § 1598 states that where a contract has but
a single object, and such object is unlawful, whether in
whole or in part, or wholly impossible of performance, or
so vaguely expressed as to be wholly unascertainable, the
entire contract is void.
Mr. Hom (Lin’s exper t) and Mr. Papa relli
(Petitioner’s expert), testified that the primary “object”
of the Agreement was to obtain permanent residency
for Lin and his family. (3 RT 201, 214.)
The other facts, documents, and testimony in the
matter also make it clear that the primary “object” or
“purpose” of the entire transaction was for Respondent
and his family to obtain permanent residency through the
EB-5 program. Respondent had no interest in anything
other than getting himself and his family their “green
cards,” and in getting his money back at the end of the
five (5) year term.
So in reality, there really was only one “purpose” to the
Agreement, and that “purpose” was to obtain permanent
residency for Respondent and his family, which makes the
Agreement illegal under United States Immigration law.
And if the Agreement was illegal to support the benefits
sought under United States Immigration Law, then it
should be illegal and unenforceable under State law and
public policy, including, but not limited to, California.
As discussed previously, the Agreement was clearly
a transaction which was used inappropriately by the
Respondent to establish permanent residency in the
United States by illegal means. (See, 1 CT 000217 -

27
000219; 8 C.F.R. § 204.6(e); In Re Izummi 22 I&N Dec.
169 (Comm.1998).
As such, it is an illegal “contract” with an “unlawful
object.” Civil Code § 1550; see also, California Civil Jury
Instructions, CACI No. 302.
Fur ther, g iven the nature of the ag reement,
Respondent violated Federal law when he and his attorney
(Yu) chose not to submit the document as an exhibit to
his I-526 application for an EB-5 investor visa. (See, 8
U.S.C.A. § 1324c(f) (Penalties for Document Fraud).
The Agreement is clearly illegal and should not be
enforced in California. (See, Civil Code §§ 1550, 1596 and
1598; Smith v. Simmons (E.D.Cal.2009) 638 F.Supp.2d
1190; MKB Management, Inc. v. Melikian (2010) 184
Cal.App.4th 796; Brenner v. Haley (1960) 185 Cal.App.2d
183; Yoo v. Jho (2007) 147 Cal.App. 4th 1259; Abramson
v. Juniper Networks, Inc. (2004) 115 Cal.App.4th 638;
Kashani v. Tsann Kuen China Enterprise Co., Ltd. (2004)
118 Cal.App.4th 531.)
Under California law, an agreement may be held
unenforceable whether evidence of illegality is produced
by plaintiff or by defendant. (Smith v. Simmons
(E.D.Cal.2009) 638 F.Supp.2d 1190.) If the central purpose
of a contract is tainted with illegality, then the contract as
a whole cannot be enforced. (MKB Management, Inc. v.
Melikian (2010) 184 Cal.App.4th 796.) It is clear that the
“central purpose” of this Agreement was to illegally obtain
permanent residency status on behalf of Respondent
and his family on the basis of a “loan” as opposed to an
“investment.”

28
Where a contract has as its object the violation of the
law, no recovery may be had by either party and a party to
an illegal contract cannot set up a claim with such contract
as its’ basis. (Brenner v. Haley (1960) 185 Cal.App.2d
183.) The Agreement clearly had, as its’ object, a violation
and/or circumvention of well-established United States
Immigration law such as 8 C.F.R. § 204.6(e) and In Re
Izummi 22 I&N Dec. 169 (Comm.1998). (See, Appendix E.)
“No principle of law is better settled than that a party
to an illegal contract cannot come into a court of law and
ask to have his illegal objects carried out.” (Yoo v. Jho
(2007) 147 Cal.App. 4th 1249 quoting Wong v. Tenneco
(1985) 39 Cal.3d 126, 1335 quoting Lee On v. Long (1951) 37
Cal.2d 499, 502, cert. denied, 342 U.S. 947 (1952) (quoting
Corpus Juris Secundum).
Also, a contract that contravenes public policy is
illegal. (Abramson v. Juniper Networks, Inc. (2004) 115
Cal.App.4th 638.)
A violation of federal law is a violation of law for
purposes of determining whether or not a contract
is unenforceable as contrary to the public policy of
California. (Kashani v. Tsann Kuen China Enterprise
Co., Ltd. (2004) 118 Cal.App.4th 531 (Emphasis added.)
It is clear that this action is based on an illegal
Agreement and/or a transaction with an illegal purpose
that is clearly in violation of Federal law, California law,
and California public policy. Therefore, the contract
ultimately should be considered void and unenforceable.

29
No matter how one chooses to look at it, the primary
“object” of the “Agreement” was to obtain “green cards”
for Respondent and his family at no risk to him. The
injection of $1.000,000.00 into Golden Restaurant, LLC
was simply a means to that end. Respondent clearly had
no interest in owning or running the business, or in taking
on any of the risk associated with it.
“Investing” in a new business that is going to open a
new restaurant in an effort to obtain a “green card” is a
“lawful object.” “Loaning” money to a couple of individuals
and characterizing it as a $1,000,000.00 investment in a
new business in an effort to obtain a “green card” is not.
(1 CT 000217 – 000219; Appendix E.)
The Judgment by the Superior Court and the Opinion
of the Court of Appeal have the unintended consequence
of providing future immigrants, and unscrupulous
immigration professionals, with a roadmap on how to
circumvent United States Immigration law in order
to obtain permanent residency, and possibly future
citizenship. The encouragement of this type of conduct is
clearly against the law and public policy of the State of
California and ultimately merits review and reversal by
this Court as it circumvents well established Federal law
and policy in a way that is adverse to the United States
Constitution, Article VI, Clause 2 and adverse to the
interests of our government with respect to immigration
and naturalization.

30
CONCLUSION
For the foregoing reasons, the Court should grant this
Petition for Writ of Certiorari.
Dated: September 4, 2019
			Respectfully submitted,
Harry M. Barth
Counsel of Record
David R. Calderon
BarthCalderon LLP
333 City Boulevard West Suite 2050
Orange, California 92868
(714) 704-4828
harry@barthattorneys.com
Counsel for Petitioner

APPENDIX

1a
AppendixOF
A THE COURT OF
APPENDIX A — OPINION
APPEAL OF THE STATE OF CALIFORNIA,
SECOND APPELLATE DISTRICT, DIVISION TWO,
FILED MARCH 7, 2019
IN THE COURT OF APPEAL OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO
B285053
(Los Angeles County Super. Ct. No. KC066675)
JUI-CHIEN LIN,
Plaintiff and Appellant,
v.
ROBERT T. CHIU,
Defendant and Appellant.
March 7, 2019, Opinion Filed
APPEAL from a judgment of the Superior Court of
Los Angeles Count. Dan T. Oki, Judge. Affirmed.
An investor signed a contract agreeing to contribute
$1 million toward opening a fast food restaurant franchise,
and was promised full repayment plus $80,000 by the end
of five years. The franchisees accepted the money but
did not fully repay it. The investor sued to recover the
shortfall, and the trial court ruled in his favor. On appeal,
one of the franchisees argues that the contract was illegal

2a
Appendix A
(and hence unenforceable) because the investor later
went on to use the contract to apply for lawful permanent
residency in the United States as an “alien entrepreneur”
when the contract did not meet the prerequisites for that
program. On cross-appeal, the investor argues that the
trial court should have invalidated the franchisee’s postdefault transfer of assets as a fraudulent transfer. Neither
the appeal nor cross-appeal has merit, so we affirm.
FACTS AND PROCEDURAL BACKGROUND
I.

Facts

In September 2004, plaintiff Jui-Chien Lin (Lin)
entered into an “Agreement to Form A California Limited
Liability Company [(LLC)]” (Agreement) with Robert
Chiu (Chiu) and Charles Cobb (Cobb). Pursuant to that
Agreement, Chiu and Cobb agreed to form an LLC to
acquire and operate a fast food restaurant in California.
Lin agreed to contribute $1 million for five years in
exchange for becoming a 30 percent owner in the LLC.
The Agreement obligated Chiu and Cobb to “buy back”
the $1 million contribution from Lin “[a]t the end of the
five year[] term” and to pay Lin an additional $80,000—
$40,000 by the end of the fourth year, and another $40,000
by the end of the fifth. Otherwise, Chiu and Cobb were
to retain all of the “revenues derived” from the LLC’s
restaurant and to indemnify and hold Lin harmless from
any of the LLC’s debts and other losses. After signing
the contract, Chiu formed the Golden Restaurant, LLC
(LLC) and Lin wired $1,000,130 to the LLC.

3a
Appendix A
Lin had sought out and signed the Agreement
because he wanted to qualify as an “alien entrepreneur”
under federal immigration law. Federal immigration
law authorizes a foreign investor to apply for permanent
residency in the United States if he has (1) invested
“capital” of, in most geographic areas, at least $1 million
(2) “in a new commercial enterprise” (3) “that creates”
“not fewer than 10” jobs for persons lawfully in the United
States. (U.S. Citizenship and Immig. Services, Policy
Mem., (May 30, 2013) p. 2); 8 U.S.C. § 1153(b)(5); 8 C.F.R.
§§ 100.1, 204.6.) Lin told Chiu and Cobb about his desire
to seek alien entrepreneur status. Indeed, “facilitating”
Lin’s “interest in obtaining U.S. permanent residency”
was listed as the second “purpose” of the Agreement; the
first was to “form a California [LLC] . . . [to] construct[]
and operat[e] [a] [r]estaurant.” Lin applied for permanent
residency seven months after signing the Agreement, and
his application was thereafter granted.
Chiu and Cobb were unable to pay Lin either of
the $40,000 payments or to buy back the $1 million
contribution at the end of the five-year period. Lin waived
his entitlement to the $80,000 payments and granted
Chiu additional time to repay the contribution. Between
March 2011 and November 2012, Chiu eventually made
payments totaling $298,000 to Lin. This left a balance of
$702,000 unpaid.
In May 2011, Chiu and his wife transferred their
respective 50 percent interests in the family home into
separate qualified personal residence trusts (the trusts).

4a
Appendix A
II. Procedural Background
In 2014, Lin sued Chiu, Cobb, the LLC, Chiu’s wife and
the trusts. In the operative, Second Amended Complaint,
Lin sued (1) Chiu for breach of contract (and, in particular,
the Agreement’s buyback provision)1 and (2) Chiu, Chiu’s
wife and the trusts for transferring their home into the
trusts, in violation of the Uniform Voidable Transactions
Act (Civ. Code, § 3439 et seq.). 2
Chiu moved for summary judgment on the ground
that the Agreement was illegal (and hence unenforceable).
More specifically, Chiu argued that Lin’s “contribution”
under the Agreement was simply a loan and that loans do
not qualify as “investments” under the alien entrepreneur
provisions (In re Izummi, 22 I. & N. Dec. 169 (BIA 1998);
8 C.F.R. § 204.6(e)), such that the Agreement violated
federal immigration law. The trial court rejected the
argument and denied the motion.
1. Lin also sued Cobb, but later dismissed him after Cobb
declared bankruptcy.
2. The SAC alleged ten other claims, including for (1) breach
of the LLC’s operating agreement, (2) fraud and misrepresentation,
(3) negligent misrepresentation, (4) breach of fiduciary duty, (5)
conspiracy, (6) rescission of the Agreement, (7) rescission of the
LLC’s operating agreement, (8) an accounting, (9) unjust enrichment,
and (10) declaratory relief. Lin voluntarily dismissed three of these
claims. The trial court ruled against him on the remainder, and
neither Lin nor Chiu appeals those rulings.
All further statutory references are to the Civil Code unless
otherwise indicated.

5a
Appendix A
The matter proceeded to a bench trial. At trial, Chiu
testified and conceded that he owed Lin the outstanding
balance of $702,000 if the Agreement was valid. Lin
and Chiu each called experts on immigration law who
offered differing opinions on whether Lin’s contribution
of $1 million under the Agreement would qualify as
an “investment” under the alien entrepreneur rules.
Chiu’s expert also opined that Lin’s failure to include the
Agreement with his application for lawful permanent
residency constituted document fraud.
The court ruled that Chiu had breached the Agreement
by not repaying the $702,000 still owing. The court
rejected Chiu’s argument that the Agreement was illegal.
The court found that the Agreement had two stated
purposes—(1) to have Chiu and Cobb “benefit” from
Lin’s $1 million investment into the LLC, and (2) “to
qualify . . . Lin and his family” as alien entrepreneurs.
To the court, neither of those purposes was illegal. Even
if Lin’s alien entrepreneur petition should have been
denied because the Agreement amounted to a loan and
not an investment, the court continued, that fact “does
not equate in mak[ing] the [Agreement] and [underlying
loan] transaction unlawful.”
The court ruled that Chiu and his wife had not
fraudulently conveyed their home to the trusts. More
specifically, the court ruled that Lin had not “met his
burden of proof” in showing that “the transfer rendered
[Chiu or his wife] insolvent.”

6a
Appendix A
After the court entered judgment, Chiu filed a timely
notice of appeal and Lin filed a timely notice of crossappeal.
DISCUSSION
On appeal, Chiu argues that the trial court erred
in ruling that he breached the Agreement (because the
Agreement was unenforceable and because Lin had
“unclean hands”). On cross-appeal, Lin argues that the
trial court erred in ruling that he had not proven Chiu’s
insolvency (because the court mis-assigned the burden of
proof). We independently review issues of illegality, the
applicability of the unclean hands doctrine to a particular
situation, and the proper assignment of the burden of
proof. (Kashani v. Tsann Kuen China Enterprise Co.,
(2004) 118 Cal.App.4th 531, 540, 13 Cal. Rptr. 3d 174
[illegality]; Brown v. Grimes (2011) 192 Cal.App.4th
265, 274, 120 Cal. Rptr. 3d 893 [unclean hands]; Crocker
National Bank v. City and County of San Francisco
(1989) 49 Cal.3d 881, 888, 264 Cal. Rptr. 139, 782 P.2d
278 [questions of law, such as mis-assignment of burden
of proof].) We review any factual findings for substantial
evidence. (Steiner v. Thexton (2010) 48 Cal.4th 411, 417,
fn. 7, 106 Cal. Rptr. 3d 252, 226 P.3d 359.)
I.

Appeal of Breach of Contract Ruling

Chiu contends that the Agreement is unenforceable
on two interrelated but distinct theories—namely, that
(1) the Agreement itself is illegal, and (2) Lin has unclean
hands. In invoking each theory, Chiu more specifically

7a
Appendix A
asserts that (1) the Agreement has an illegal purpose,
and (2) Lin used the Agreement to commit a fraud upon
the immigration authorities by not disclosing the full
Agreement when applying for alien entrepreneur status
(in order to conceal that the Agreement really only
provided for a loan, and not an investment).
A.

Is the Agreement itself unenforceable?

A contract is valid only if its “object” is “lawful.”
(§ 1550, 1596; Hill v. San Jose Family Housing Partners,
LLC (2011) 198 Cal.App.4th 764, 774, 130 Cal. Rptr. 3d
454 (Hill) [“A contract must have a lawful object.”]; cf.
§ 1599 [contract with a “single,” “unlawful” “object” is
“void”].) Courts generally refuse to enforce a contract
with an unlawful object because enforcing such a contract
would make the “judicial system” complicit in enforcing
an “illegal bargain.” (Yoo v. Jho (2007) 147 Cal.App.4th
1249, 1255-1256, 55 Cal. Rptr. 3d 243 (Yoo).)
A contract is not unenforceable simply because it
is somehow “connected with an illegal transaction.”
(Robertson v. Hyde (1943) 58 Cal.App.2d 667, 672, 137 P.2d
703 (Robertson).) It is not enough that “there may be some
illegal[ity] . . . indirectly connected with a transaction.”
(Hill, supra, 198 Cal.App.4th at p. 776.) A contract is
unenforceable only if “‘“the central purpose of the contract
is tainted with illegality.”’” (MKB Management, Inc. v.
Melikian (2010) 184 Cal.App.4th 796, 803, 108 Cal. Rptr.
3d 899 (MKB), quoting Marathon Entertainment, Inc.
v. Blasi (2008) 42 Cal.4th 974, 996, 70 Cal. Rptr. 3d 727,
174 P.3d 741.) Illegality is central to the purpose of the

8a
Appendix A
contract if “‘“the plaintiff requires the aid of the illegal
transaction to establish his case [for relief in court].”’”
(Homami v. Iranzadi (1989) 211 Cal.App.3d 1104, 1109,
260 Cal. Rptr. 6 (Homami); Brenner v. Haley (1960) 185
Cal.App.2d 183, 187, 8 Cal. Rptr. 224; see Yoo, supra,
147 Cal.App.4th at pp. 1252-1253 [illegality is central
to contract to sell counterfeit goods].) And if a contract
has “several distinct objects,” the courts will endeavor
to enforce those portions of the contract having a lawful
object if those portions may be feasibly severed and “‘“the
interests of justice . . . would be furthered’” by severance.”
(§ 1599, italics added; MKB, at p. 804; see also § 1643 [“A
contract must receive such an interpretation as will make
it lawful . . .”].)
In this case, the buyback provision of the Agreement
that Lin is seeking to enforce is enforceable for two
reasons.
First, the “central purpose” of the Agreement is not
tainted with illegality. Even if we assume that Lin was
seeking to defraud the federal immigration authorities
by trying to use the Agreement to support his application
when the “buyback” was really a loan (and hence not a
qualifying “investment”), that illegal purpose is not central
to the Agreement. That is because Lin’s entitlement to
repayment of his full $1,000,000 contribution under the
Agreement depends solely on proof that Lin paid Chiu
$1,000,000 and did not get all of it back. Put differently,
Lin does not “‘“require[] the aid of the illegal transaction
to establish his case.”’” (Homami, supra, 211 Cal.App.3d
at p. 1109.)

9a
Appendix A
In this respect, this case is akin to Robertson, supra,
58 Cal.App.2d 667 and C.I.T. Corp. v. Breckenridge (1944)
63 Cal.App.2d 198, 200, 146 P.2d 271 (Breckenridge).)
Robertson declined to excuse a homebuyer from his duty
to repay a loan just because the seller-lender unlawfully
put title to the house in her son’s name so she could
qualify for “old age relief.” (Robertson, at pp. 670-671.)
And Breckenridge declined to excuse a borrower from his
duty to repay a loan just because the loan was used to fund
construction by an unlicensed contractor. (Breckenridge,
at p. 200.) Here, Chiu should not be excused from his
duty to repay his loan from Lin just because Lin might
have presented, in a misleading way, the nature of the
Agreement to immigration authorities to obtain an
immigration benefit. Neither Lin’s motives in making
the loan nor Chiu’s knowledge of Lin’s motive adds any
further weight to the scales. (Powis v. Moore Machinery
Co., (1945) 72 Cal.App.2d 344, 354, 164 P.2d 822 [party’s
“motive d[oes] not make [a] contract illegal”]; People v.
Brophy (1942) 49 Cal.App.2d 15, 30, 120 P.2d 946 [contract
remains “enforceab[le] . . . even though one of the parties
thereto has knowledge of an intended purpose of the other
party, by means of the contract . . . to violate some law or
public policy”].)
Chiu points us to Casa Del Caffe Vergnano S.P.A.
v. Italflavors, LLC (9th Cir. 2016) 816 F.3d 1208 (Casa).
But Casa is inapt. In Casa, the court refused to enforce
a contract when the parties had simultaneously entered
into a second agreement declaring that the first contract
did not have “any validity or effectiveness between the
parties.” (Id. at p. 1210, 1212-1214; see also Homami,

10a
Appendix A
supra, 211 Cal.App.3d at p. 1112 [court refuses to enforce
provision negated by an oral side agreement].) Here,
Lin and Chiu signed only one contract; that contract
was meant to be effective; and the parties treated it as
effective by creating the LLC and exchanging $1 million.
Thus, the Agreement is in no sense a “sham.” (Cf. Young
v. Hampton (1951) 36 Cal.2d 799, 805-806, 228 P.2d 1 [first
contract not enforceable where second contract declared
that first was designed to evade the requirements of the
G.I. Bill and obtain its benefits].)
Second, the object of the Agreement in facilitating
Lin’s contribution of money and Chiu’s buyback of the
same is distinct from—and, critically, severable from—the
object of the Agreement in facilitating Lin’s application
for lawful permanent residency. Severance of a contract
serves the interests of justice when it (1) would “‘prevent
parties from gaining undeserved benefit or suffering
undeserved detriment as a result of voiding the entire
agreement,’” or (2) would “‘not be condoning an illegal
scheme’ [citations].” (MKB, supra, 184 Cal.App.4th at
pp. 803-804.) If we declared the entire Agreement invalid
due to illegality in Lin’s subsequent use of the Agreement
for immigration purposes, Chiu would get to keep the
remaining balance of the loan—$702,000—free and clear.
This is an undeserved benefit. Allowing Lin to enforce
the monetary portion of the Agreement would also not
condone an illegal scheme because any illegality goes at
most to why Lin handed over $1 million, but not the terms
of the exchange itself or its expected repayment. Chiu’s
argument that allowing Lin to enforce his loan will create
“horrible precedent” by giving wealthy foreign investors

11a
Appendix A
a “road map” on “how to . . . circumvent[] well-established
United States Immigration Law” is, in our view, little
more than a speculative bugaboo that would itself create
horrible precedent by giving debtors a road map on how
to circumvent their admitted debts.
B. Does Lin have unclean hands?
“‘The defense of unclean hands arises from the
maxim: “‘He who comes into Equity must come with clean
hands.’”’” (East West Bank v. Rio School Dist. (2015) 235
Cal.App.4th 742, 751, 185 Cal. Rptr. 3d 676, quoting Blain
v. Doctor’s Co. (1990) 222 Cal.App.3d 1048, 1059, 272 Cal.
Rptr. 250 (Blain).) Whether the doctrine bars relief in
any particular case “depends upon . . . [(1)] analogous
case law, [(2)] the nature of the misconduct, and [(3)] the
relationship of the misconduct to the claimed injuries.”
(Blain, at p. 1060.) With respect to the third element, “[t]
he misconduct that brings the unclean hands doctrine into
play must relate directly to the transaction concerning
which the complaint is made” and “must infect the cause
of action involved and affect the equitable relations
between the litigants.” (Kendall-Jackson Winery, Ltd.
v. Superior Court (1999) 76 Cal.App.4th 970, 984, 90 Cal.
Rptr. 2d 743.) Because, as explained above, any illegality
regarding Lin’s use of the Agreement is peripheral to the
contribution and buyback of the $1 million at issue in this
litigation, the two are not “directly” “relate[d]” and the
unclean hands doctrine is not a bar.

12a
Appendix A
II. Cross-Appeal of Fraudulent Conveyance Ruling
Lin contends that the trial court was wrong to reject
his fraudulent conveyance claim. Before a transfer will
be voided under the Uniform Voidable Transactions
Act (Act), the plaintiff-creditor must prove that (1) the
defendant-debtor “made” a “transfer . . . without receiving
a reasonably equivalent value in exchange for the transfer
. . .,” and (2) “the debtor was insolvent at the time or the
debtor became insolvent as a result of the transfer . . . .”
(§ 3439.05, subds. (a) & (b) [burden of proof on plaintiffcreditor].) The trial court concluded that Lin did not prove
that Chiu or Chiu’s wife were insolvent while or after they
transferred their house to the trusts, and Lin does not
challenge this conclusion as a matter of evidence. Instead,
Lin argues that the trial court made a legal error in not
assigning the burden of proof to Chiu and Chiu’s wife.
Lin is wrong. To be sure, the Act provides that “[a]
debtor [who] is generally not paying [his] debts as they
become due other than as a result of a bona fide dispute is
presumed insolvent” and thereafter bears the “burden of
proving the nonexistence of insolvency.” (§ 3439.02, subd.
(b).) But this presumption only applies if the debtor is “not
paying [his] debts as they become due.” The Legislative
Committee Comment to this provision explains that a
“court should look at more than the amount and due dates
of the indebtedness” and should “also take into account
such factors as [(1)] the number of the debtor’s debts,
[(2)] the proportion of those debts not being paid, [(3)] the
duration of the nonpayment, and [(4)] the existence of bona
fide disputes or other special circumstances alleged to

13a
Appendix A
constitute an explanation for the stoppage of payments.”
(Assem. Com. on Finance and Insurance, com. on Sen.
Bill No. 2150 (1985-1986 Reg. Sess.) reprinted at 12A pt.
2 West’s Ann. Civil Code (2016 ed.) foll. § 3439.02, pp.
260-262.)
Substantial evidence supports the trial court’s implicit
finding that Lin did not prove Chiu’s failure to pay his
debts as they became due (and hence its implicit finding
that the statutory presumption was not triggered). The
record contains evidence that, after the December 2009
due date, Chiu was unable to repay the loan to Lin, but
Lin waived Chiu’s duty to pay the $80,000 in additional
payments and extended the buyback date for the $1 million
contribution, and Chiu went on to make four different
payments totaling $298,000. Lin did not present evidence
of the parties’ ultimately agreed-upon due date, so we do
not know whether Chiu was not paying his debt to Lin as
it was coming due. What is more, even if we assume that
Chiu was in arrears with respect to his payments to Lin,
Chiu owns interests in several different franchises run by
different LLCs and Lin did not establish that Chiu was
not paying any debts of those LLCs or his own personal
debts as they were coming due. To the contrary, Chiu
indicated that some of the other LLCs remained profitable.
A defendant-debtor’s insolvency looks at all of his assets;
the statutory proxy for such insolvency should accordingly
look at whether the defendant-debtor is keeping up with
all of his debts.
Because Lin is appealing the trial court’s finding that
he failed to prove a fact necessary to invoke the burden-

14a
Appendix A
flipping presumption, he is entitled to relief on appeal only
if “‘the evidence compels a finding in [his] favor . . . as a
matter of law.’” (Almanor Lakeside Villas Owners Assoc.
v. Carson (2016) 246 Cal.App.4th 761, 769, 201 Cal. Rptr.
3d 268.) Given the ambiguity in the record as to whether
Chiu was not paying his debts as they were coming due,
the record does not compel the finding that Chiu was not
doing so as a matter of law.
DISPOSITION
The judgment is affirmed. The parties are to bear
their own costs on appeal and cross-appeal.
			, J.
HOFFSTADT
We concur:
			, P. J.
LUI
			, J.
CHAVEZ

15a
Appendix B OF DECISION
APPENDIX B — STATEMENT
OF THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA, COUNTY OF LOS ANGELES FOR
THE EAST DISTRICT, POMONA COURTHOUSE,
DATED AUGUST 10, 2017
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES, EAST DISTRICT—
POMONA COURTHOUSE
Case No.: KC066675
JUI-CHIEN LIN,
Plaintiff,
vs.
ROBERT T. CHIU, AN INDIVIDUAL; et al.,
Defendants.
Assigned for All Purposes to:
Judge: Hon. D. Oki
Dept: J
(PROPOSED) STATEMENT OF DECISION
Trial Dates: 05/18/2017–05/22/2017
Time: 8:30 a.m.
Dept: J
Pursuant to Code of Civil Procedure § 632 and
California Rules of Court, Rules 3.1590 the Court issues
this Statement of Decision on the funding of fact and
conclusions of law.

16a
Appendix B
Although the Plaintiff’s Complaint was pled with
twelve distinct cause of action (some pled in the
alternative) the central issue in dispute at trial was the
First Cause of Action for Breach of Written Contract specially the rights and liabilities of the parties related
to a written Agreement to Form a California Limited
Liability Company dated September 18, 2004 (hereinafter
the “Contract”). (Exhibit 4). In his testimony, Defendant
Robert T. Chiu stated that as of the final payment of
$188,000 to plaintiff, he understood and believed that he
still owed the plaintiff $702,000 unless his obligation was
extinguished by reason of immigration law. The defense
contended that the provisions of the “Agreement to Form
a California Limited Liability Company” removed the
required ‘risk’ from the ‘investment,’ thereby making the
contract ‘illegal’ under federal immigration law.
California law and specifically Civil Code section
1550 requires among the other elements of a contract, a
lawful purpose. Examining the purpose of the Contract,
the Court finds it to be twofold. The first stated purposes
for the Contract was for the investment to qualify Mr. Lin
and his family to obtain EB5 Visas ultimately leading to
permanent residence in the United States. The second
purpose was for the defendants to have the benefit of the
plaintiffs $1 million investment for a period of five years
to fund Golden Restaurant, LLC and a new fast food
restaurant business. In return, the defendants promised
the Plaintiff a $40,000 dividend, in the fourth year and an
additional $40,000 dividend in the fifth year concurrent
with their promise of the repayment of the entire $1
million principal at the end of five years.

17a
Appendix B
The Court does not find that either of the two
purposes of the contract in and of themselves rendered
the Contract one with an unlawful purpose. There is a
substantial question of whether or not the Contract and
plaintiff’s ‘investment’ would qualify plaintiff and his
family for an EB-5 visa under federal immigration law.
But the fact that under further scrutiny by the users the
visa application would probably have been denied does
not render the purposes of the Contract unlawful and
therefore unenforceable.
There was disputed testimony concerning the origin
and responsibility for drafting the Contract. Evidence
was submitted indicating that the same contract form
has been previously used by defendants and at least one
prior investor several years earlier. (Exhibit 2) There
was also evidence showing that the proposed “blank”
form agreement and the execution ready agreement were
both generated by the defendants and sent to Attorney
Cecilia Yu for approval and execution by the Plaintiff.
(Exhibits 1 and 3) Ultimately, the Court does not find it
necessary to determine who exactly drafted the Contract.
More important to the Court’s funding of fact, the Court
did not find any evidence suggesting that the plaintiff
participated in the drafting of the Contract. Instead, the
plaintiff, unable to comprehend the English language of
the Contract, necessarily relied upon the representations
of his counsel concerning the content of the Contract and
the appropriateness of its terms for the intended purposes.
Whether the Contract was drafted by Attorney Yu or Mr.
Chiu or both of them, it is the finding of this Court that the
buyback provision in paragraph 5 would likely disqualify

18a
Appendix B
the EB-5 application under applicable federal immigration
law. But the fact that the EB-5 application perhaps should
have been denied does not equate in make the Contract
and transaction unlawful.
There’s no evidence that plaintiff had any decisionmaking role in what documentation would be submitted
with the immigration application. There’s no evidence that
USCIS subsequently requested all back up documentation
supporting the application such as the Contract. There
is no evidence that any document was requested by the
USCIS and refused plaintiff or Ms. Yu. Therefore, the
Court does not find that the purpose of the Contract was
unlawful thereby rendering the contract unenforceable.
Therefore, on the Second Amended Complaint, the
Court finds in favor of the plaintiff Jui-Chien Lin and
against the defendant Robert T. Chiu, an individual, on
the first cause of action for breach of written contract
and award damages of $702,000. In accordance with the
language and request in the Second Amended Complaint,
the Court awards interest thereon at the legal rate from
November 17, 2012, which is what is prayed for and which
is the day following the final payment of $188,000 that has
been acknowledged.
The Second, Third and Tenth causes of action having
been dismissed without prejudice before the start of
trial, the Court finds in favor of all other remaining
defendants on all the remaining causes of action, which
are the fourth through ninth causes of action for negligent
misrepresentation, breach of fiduciary duty, setting aside

19a
Appendix B
fraudulent transfers, conspiracy, rescission of contract,
and rescission of operating agreement, the 11th and 12th
causes of action for unjust enrichment and declaratory
relief.
On plaintiff’s Sixth cause of action to set aside
allegedly fraudulent transfer of the Chiu defendants into a
Qualified Personal Residence Trust, there was undisputed
testimony that the transfer was done for estate and tax
planning purposes. There was no evidence to demonstrate
that the transfer rendered the defendants insolvent and
unable to meet their obligations. The court therefore finds
that plaintiff has not met his burden of proof and finds in
favor of defendants on this cause of action.
The Court finds that the plaintiff, Jui-Chien Lin is the
prevailing party in this action.
Dated Aug 10, 2017
/s/				
Dan T. Oki,
Judge of the Superior Court

20a
AppendixOF
A REHEARING OF
APPENDIX C — DENIAL
THE SUPREME COURT OF CALIFORNIA,
FILED JUNE 12, 2019
IN THE SUPREME COURT OF CALIFORNIA
S255143
En Banc
JUI-CHIEN LIN,
Plaintiff and Appellant,
v.
ROBERT T. CHIU,
Defendant and Appellant.
Court of Appeal, Second Appellate District,
Division Two - No. B285053
The petition for review is denied.
The request for an order directing partial publication
of the opinion is denied.
CANTIL-SAKAUYE
Chief Justice

21a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY PROVISIONS
8 U.S.C. § 1153
§ 1153. Allocation of immigrant visas
(a) Preference allocation for family-sponsored
immigrants. Aliens subject to the worldwide level
specified in section 201(c) [8 USCS § 1151(c)] for familysponsored immigrants shall be allotted visas as follows:
(1) Unmarried sons and daughters of citizens. Qualified
immigrants who are the unmarried sons or daughters
of citizens of the United States shall be allocated visas
in a number not to exceed 23,400, plus any visas not
required for the class specified in paragraph (4).
(2) Spouses and unmarried sons and unmarried
daughters of permanent resident aliens. Qualified
immigrants—
(A) who are the spouses or children of an alien
lawfully admitted for permanent residence, or
(B) who are the unmarried sons or unmarried
daughters (but are not the children) of an alien
lawfully admitted for permanent residence,
shall be allocated visas in a number not to exceed
114,200, plus the number (if any) by which such
worldwide level exceeds 226,000, plus any visas not
required for the class specified in paragraph (1); except
that not less than 77 percent of such visa numbers shall
be allocated to aliens described in subparagraph (A).

22a
Appendix D
(3) Married sons and married daughters of citizens.
Qualified immigrants who are the married sons or
married daughters of citizens of the United States
shall be allocated visas in a number not to exceed
23,400, plus any visas not required for the classes
specified in paragraphs (1) and (2).
(4) Brothers and sisters of citizens. Qualified
immigrants who are the brothers or sisters of citizens
of the United States, if such citizens are at least 21
years of age, shall be allocated visas in a number not
to exceed 65,000, plus any visas not required for the
classes specified in paragraphs (1) through (3).
(b) Preference allocation for employment-based
immigrants. Aliens subject to the worldwide level
specified in section 201(d) [8 USCS § 1151(d)] for
employment-based immigrants in a fiscal year shall be
allotted visas as follows:
(1) Priority workers. Visas shall first be made available
in a number not to exceed 28.6 percent of such
worldwide level, plus any visas not required for the
classes specified in paragraphs (4) and (5), to qualified
immigrants who are aliens described in any of the
following subparagraphs (A) through (C):
(A) Aliens with extraordinary ability. An alien is
described in this subparagraph if—
(i) the alien has extraordinary ability in the
sciences, arts, education, business, or athletics

23a
Appendix D
which has been demonstrated by sustained
national or international acclaim and whose
achievements have been recognized in the field
through extensive documentation,
(ii) the alien seeks to enter the United States
to continue work in the area of extraordinary
ability, and
(iii) the alien’s entry into the United States will
substantially benefit prospectively the United
States.
(B) Outstanding professors and researchers. An
alien is described in this subparagraph if—
(i) the alien is recognized internationally as
outstanding in a specific academic area,
(ii) the alien has at least 3 years of experience in
teaching or research in the academic area, and
(iii) the alien seeks to enter the United States—
(I) for a tenured position (or tenure-track
position) within a university or institution of
higher education to teach in the academic
area,
(II) for a comparable position w ith a
university or institution of higher education
to conduct research in the area, or

24a
Appendix D
(III) for a comparable position to conduct
research in the area with a department,
division, or institute of a private employer, if
the department, division, or institute employs
at least 3 persons full-time in research
activities and has achieved documented
accomplishments in an academic field.
(C) Certain multinational executives and managers.
An alien is described in this subparagraph if the
alien, in the 3 years preceding the time of the
alien’s application for classification and admission
into the United States under this subparagraph,
has been employed for at least 1 year by a firm or
corporation or other legal entity or an affiliate or
subsidiary thereof and the alien seeks to enter
the United States in order to continue to render
services to the same employer or to a subsidiary
or affiliate thereof in a capacity that is managerial
or executive.
(2) Aliens who are members of the professions holding
advanced degrees or aliens of exceptional ability.
(A) In general. Visas shall be made available,
in a number not to exceed 28.6 percent of such
worldwide level plus any visas not required for
the classes specified in paragraph (1), to qualified
immigrants who are members of the professions
holding advanced degrees or their equivalent or
who because of their exceptional ability in the
sciences, arts, or business, will substantially benefit
prospectively the national economy, cultural or

25a
Appendix D
educational interests, or welfare of the United
States, and whose services in the sciences, arts,
professions, or business are sought by an employer
in the United States.
(B)
(i) Subject to clause (ii), the Attorney General
may, when the Attorney General deems it to be
in the national interest, waive the requirements
of subparagraph (A) that an alien’s services in
the sciences, arts, professions, or business be
sought by an employer in the United States.
(ii)
(I) The Attorney General shall grant
a national interest waiver pursuant to
clause (i) on behalf of any alien physician
w ith respect to whom a petition for
preference classification has been filed
under subparagraph (A) if—
(aa) the alien physician agrees to work
full time as a physician in an area or
areas designated by the Secretary of
Health and Human Services as having
a shortage of health care professionals
or at a health care facility under the
jurisdiction of the Secretary of Veterans
Affairs; and

26a
Appendix D
(bb) a Federal agency or a department of
public health in any State has previously
determined that the alien physician’s
work in such an area or at such facility
was in the public interest.
(II) No permanent resident visa may be
issued to an alien physician described in
subclause (I) by the Secretary of State
under section 204(b) [8 USCS § 1154(b)],
and the Attorney General may not adjust
the status of such an alien physician from
that of a nonimmigrant alien to that of a
permanent resident alien under section 245
[8 USCS § 1255], until such time as the alien
has worked full time as a physician for an
aggregate of 5 years (not including the time
served in the status of an alien described
in section 101(a)(15)(J) [8 USCS § 1101(a)
(15)(J)]), in an area or areas designated
by the Secretary of Health and Human
Services as having a shortage of health
care professionals or at a health care facility
under the jurisdiction of the Secretary of
Veterans Affairs.
(III) Nothing in this subparagraph may be
construed to prevent the filing of a petition
with the Attorney General for classification
under section 204(a) [8 USCS § 1154(a)], or
the filing of an application for adjustment
of status under section 245 [8 USCS

27a
Appendix D
§ 1255], by an alien physician described in
subclause (I) prior to the date by which such
alien physician has completed the service
described in subclause (II).
(IV) The requirements of this subsection
do not affect waivers on behalf of alien
physicians approved under section 203(b)(2)
(B) [subsec. (b)(2)(B) of this section] before
the enactment date of this subsection. In the
case of a physician for whom an application
for a waiver was filed under section 203(b)
(2)(B) [subsec. (b)(2)(B) of this section] prior
to November 1, 1998, the Attorney General
shall grant a national interest waiver
pursuant to section 203(b)(2)(B) [subsec.
(b)(2)(B) of this section] except that the
alien is required to have worked full time
as a physician for an aggregate of 3 years
(not including time served in the status of
an alien described in section 101(a)(15)(J)
[8 USCS § 1101(a)(15)(J)]) before a visa can
be issued to the alien under section 204(b)
[8 USCS § 1154(b)] or the status of the alien
is adjusted to permanent resident under
section 245 [8 USCS § 1255].
(C) Determination of exceptional ability. In
determining under subparagraph (A) whether an
immigrant has exceptional ability, the possession of
a degree, diploma, certificate, or similar award from
a college, university, school, or other institution of

28a
Appendix D
learning or a license to practice or certification
for a particular profession or occupation shall not
by itself be considered sufficient evidence of such
exceptional ability.
(3) Skilled workers, professionals, and other workers.
(A) In general. Visas shall be made available,
in a number not to exceed 28.6 percent of such
worldwide level, plus any visas not required for the
classes specified in paragraphs (1) and (2), to the
following classes of aliens who are not described
in paragraph (2):
(i) Skilled workers. Qualified immigrants
who are capable, at the time of petitioning
for classification under this paragraph, of
performing skilled labor (requiring at least 2
years training or experience), not of a temporary
or seasonal nature, for which qualified workers
are not available in the United States.
(ii) Professionals. Qualified immigrants who
hold baccalaureate degrees and who are
members of the professions.
(iii) Other workers. Other qualified immigrants
who are capable at the time of petitioning
for classification under this paragraph, of
performing unskilled labor, not of a temporary
or seasonal nature, for which qualified workers
are not available in the United States.

29a
Appendix D
(B) Limitation on other workers. Not more than
10,000 of the visas made available under this
paragraph in any fiscal year may be available for
qualified immigrants described in subparagraph
(A)(iii).
(C) Labor certification required. An immigrant
visa may not be issued to an immigrant under
subparagraph (A) until the consular officer is in
receipt of a determination made by the Secretary
of Labor pursuant to the provisions of section 212(a)
(5)(A) [8 USCS § 1182(a)(5)(A)].
(4) Certain special immigrants. Visas shall be made
available, in a number not to exceed 7.1 percent of
such worldwide level, to qualified special immigrants
described in section 101(a)(27) [8 USCS § 1101(a)(27)]
(other than those described in subparagraph (A) or
(B) thereof), of which not more than 5,000 may be
made available in any fiscal year to special immigrants
described in subclause (II) or (III) of section 101(a)
(27)(C)(ii) [8 USCS § 1101(a)(27)(C)(ii)(II) or (III)],
and not more than 100 may be made available in any
fiscal year to special immigrants, excluding spouses
and children, who are described in section 101(a)(27)
(M) [8 USCS § 1101(a)(27)(M)].
(5) Employment creation.
(A) In general. Visas shall be made available, in a
number not to exceed 7.1 percent of such worldwide
level to qualified immigrants seeking to enter the

30a
Appendix D
United States for the purpose of engaging in a
new commercial enterprise (including a limited
partnership)—
(i) in which such alien has invested (after the
date of the enactment of the Immigration Act
of 1990 [enacted Nov. 29, 1990]) or, is actively
in the process of investing, capital in an
amount not less than the amount specified in
subparagraph (C), and
(ii) which will benefit the United States economy
and create full-time employment for not fewer
than 10 United States citizens or aliens lawfully
admitted for permanent residence or other
immigrants lawfully authorized to be employed
in the United States (other than the immigrant
and the immigrant’s spouse, sons, or daughters).
(B) Set-aside for targeted employment areas.
(i) In general. Not less than 3,000 of the visas
made available under this paragraph in each
fiscal year shall be reserved for qualified
immigrants who invest in a new commercial
enterprise described in subparagraph (A)
which will create employment in a targeted
employment area.
(ii) Targeted employment area defined. In this
paragraph, the term “targeted employment
area” means, at the time of the investment, a

31a
Appendix D
rural area or an area which has experienced
high unemployment (of at least 150 percent of
the national average rate).
(iii) Rural area defined. In this paragraph,
the term “rural area” means any area other
than an area within a metropolitan statistical
area or within the outer boundary of any city
or town having a population of 20,000 or more
(based on the most recent decennial census of
the United States).
(C) Amount of capital required.
(i) In general. Except as otherwise provided
in this subparagraph, the amount of capital
requi red under subpa rag raph (A) shall
be $1,000,000. The Attorney General, in
consultation with the Secretary of Labor and
the Secretary of State, may from time to time
prescribe regulations increasing the dollar
amount specified under the previous sentence.
(ii) Adjustment for targeted employment
areas. The Attorney General may, in the case
of investment made in a targeted employment
area, specify an amount of capital required
under subparagraph (A) that is less than (but
not less than ½ of) the amount specified in
clause (i).

32a
Appendix D
(iii) Adjustment for high employment areas.
In the case of an investment made in a part of
a metropolitan statistical area that at the time
of the investment—
(I) is not a targeted employment area, and
(II) is an area with an unemployment rate
significantly below the national average
unemployment rate,
the Attorney General may specify an amount of
capital required under subparagraph (A) that
is greater than (but not greater than 3 times)
the amount specified in clause (i).
(D) Full-time employ ment def ined. In this
paragraph, the term “full-time employment”
means employment in a position that requires at
least 35 hours of service per week at any time,
regardless of who fills the position.
(6) Special rules for “K” special immigrants.
(A) Not counted against numerical limitation in
year involved. Subject to subparagraph (B), the
number of immigrant visas made available to
special immigrants under section 101(a)(27)(K)
[8 USCS § 1108(a)(27)(K)] in a fiscal year shall
not be subject to the numerical limitations of this
subsection or of section 202(a) [8 USCS § 1152(a)].

33a
Appendix D
(B) Counted against numerical limitations in
following year.
(i) Reduction in employment-based immigrant
classifications. The number of visas made
available in any fiscal year under paragraphs
(1), (2), and (3) shall each be reduced by 1/3 of the
number of visas made available in the previous
fiscal year to special immigrants described in
section 101(a)(27)(K) [8 USCS § 1101(a)(27)(K)].
(ii) Reduction in per country level. The number
of visas made available in each fiscal year to
natives of a foreign state under section 202(a)
[8 USCS § 1152(a)] shall be reduced by the
number of visas made available in the previous
fiscal year to special immigrants described in
section 101(a)(27)(K) [8 USCS § 1101(a)(27)(K)]
who are natives of the foreign state.
(iii) Reduction in employment-based immigrant
classifications within per country ceiling. In the
case of a foreign state subject to section 202(e)
[8 USCS § 1152(e)] in a fiscal year (and in the
previous fiscal year), the number of visas made
available and allocated to each of paragraphs (1)
through (3) of this subsection in the fiscal year
shall be reduced by 1/3 of the number of visas
made available in the previous fiscal year to
special immigrants described in section 101(a)
(27)(K) [8 USCS § 1101(a)(27)(K))] who are
natives of the foreign state.

34a
Appendix D
(c) Diversity immigrants.
(1) In general. Except as provided in paragraph (2),
aliens subject to the worldwide level specified in section
201(e) [8 USCS § 1151(e)] for diversity immigrants shall
be allotted visas each fiscal year as follows:
(A) Determination of preference immigration. The
Attorney General shall determine for the most
recent previous 5-fiscal-year period for which
data are available, the total number of aliens who
are natives of each foreign state and who (i) were
admitted or otherwise provided lawful permanent
resident status (other than under this subsection)
and (ii) were subject to the numerical limitations
of section 201(a) [8 USCS § 1151(a)] (other than
paragraph (3) thereof) or who were admitted or
otherwise provided lawful permanent resident
status as an immediate relative or other alien
described in section 201(b)(2) [8 USCS § 1151(b)(2)].
(B) Identification of high-admission and lowadmission regions and high-admission and lowadmission states. The Attorney General—
(i) shall identify—
(I) each region (each in this paragraph
referred to as a “high-admission region”) for
which the total of the numbers determined
under subparagraph (A) for states in the
region is greater than 1/6 of the total of all
such numbers, and

35a
Appendix D
(II) each other region (each in this paragraph
referred to as a “low-admission region”);
and
(ii) shall identify—
(I) each foreign state for which the number
determined under subparagraph (A) is
greater than 50,000 (each such state in this
paragraph referred to as a “high-admission
state”), and
(II) each other foreign state (each such state
in this paragraph referred to as a “lowadmission state”).
(C) Determination of percentage of worldwide
immigration attributable to high-admission
regions. The Attorney General shall determine the
percentage of the total of the numbers determined
under subparagraph (A) that are numbers for
foreign states in high-admission regions.
(D) Deter mination of reg ional populations
excluding high-admission states and ratios of
populations of regions within low-admission
regions and high-admission regions. The Attorney
General shall determine—
(i) based on available estimates for each region,
the total population of each region not including
the population of any high-admission state;

36a
Appendix D
(ii) for each low-admission region, the ratio
of the population of the region determined
under clause (i) to the total of the populations
determined under such clause for all the lowadmission regions; and
(iii) for each high-admission region, the ratio
of the population of the region determined
under clause (i) to the total of the populations
determined under such clause for all the highadmission regions.
(E) Distribution of visas.
(i) No visas for natives of high-admission states.
The percentage of visas made available under
this paragraph to natives of a high-admission
state is 0.
(ii) For low-admission states in low-admission
regions. Subject to clauses (iv) and (v), the
percentage of visas made available under this
paragraph to natives (other than natives of a
high-admission state) in a low-admission region
is the product of—
(I) the percentage determined under
subparagraph (C), and
(II) the population ratio for that region
determined under subparagraph (D)(ii).

37a
Appendix D
(iii) For low-admission states in high-admission
regions. Subject to clauses (iv) and (v), the
percentage of visas made available under this
paragraph to natives (other than natives of
a high-admission state) in a high-admission
region is the product of—
(I) 100 percent minus the percentage
determined under subparagraph (C), and
(II) the population ratio for that region
determined under subparagraph (D)(iii).
(iv) Redistribution of unused visa numbers.
If the Secretary of State estimates that the
number of immigrant visas to be issued to
natives in any region for a fiscal year under
this paragraph is less than the number of
immigrant visas made available to such natives
under this paragraph for the fiscal year, subject
to clause (v), the excess visa numbers shall be
made available to natives (other than natives
of a high-admission state) of the other regions
in proportion to the percentages otherwise
specified in clauses (ii) and (iii).
(v) Limitation on visas for natives of a single
foreign state. The percentage of visas made
available under this paragraph to natives of any
single foreign state for any fiscal year shall not
exceed 7 percent.

38a
Appendix D
(F) “Region” defined. Only for purposes of
administering the diversity program under this
subsection, Northern Ireland shall be treated
as a separate foreign state, each colony or other
component or dependent area of a foreign state
overseas from the foreign state shall be treated as
part of the foreign state, and the areas described
in each of the following clauses shall be considered
to be a separate region:
(i) Africa.
(ii) Asia.
(iii) Europe.
(iv) North America (other than Mexico).
(v) Oceania.
(vi) South America, Mexico, Central America,
and the Caribbean.
(2) Requirement of education or work experience. An
alien is not eligible for a visa under this subsection
unless the alien—
(A) has at least a high school education or its
equivalent, or
(B) has, within 5 years of the date of application
for a visa under this subsection, at least 2 years of

39a
Appendix D
work experience in an occupation which requires
at least 2 years of training or experience.
(3) Maintenance of information. The Secretary of State
shall maintain information on the age, occupation,
education level, and other relevant characteristics of
immigrants issued visas under this subsection.
(d) Treatment of family members. A spouse or child as
defined in subparagraph (A), (B), (C), (D), or (E) of section
101(b)(1) [8 USCS § 1101(b)(1)(A), (B), (C), (D), or (E)] shall,
if not otherwise entitled to an immigrant status and the
immediate issuance of a visa under subsection (a), (b), or
(c), be entitled to the same status, and the same order of
consideration provided in the respective subsection, if
accompanying or following to join, the spouse or parent.
(e) Order of consideration.
(1) Immigrant visas made available under subsection
(a) or (b) shall be issued to eligible immigrants in
the order in which a petition in behalf of each such
immigrant is filed with the Attorney General (or in the
case of special immigrants under section 101(a)(27)(D)
[8 USCS § 1101(a)(27)(D)], with the Secretary of State)
as provided in section 204(a) [8 USCS § 1154(a)].
(2) Immigrant visa numbers made available under
subsection (c) (relating to diversity immigrants) shall
be issued to eligible qualified immigrants strictly in
a random order established by the Secretary of State
for the fiscal year involved.

40a
Appendix D
(3) Waiting lists of applicants for visas under this
section shall be maintained in accordance with
regulations prescribed by the Secretary of State.
(f) Authorization for issuance. In the case of any alien
claiming in his application for an immigrant visa to be
described in section 201(b)(2) [8 USCS § 1151(b)(2)] or in
subsection (a), (b), or (c) of this section, the consular officer
shall not grant such status until he has been authorized to
do so as provided by section 204 [8 USCS § 1154].
(g) Lists. For purposes of carrying out the Secretary’s
responsibilities in the orderly administration of this
section, the Secretary of State may make reasonable
estimates of the anticipated numbers of visas to be issued
during any quarter of any fiscal year within each of the
categories under subsections (a), (b), and (c) and to rely
upon such estimates in authorizing the issuance of visas.
The Secretary of State shall terminate the registration
of any alien who fails to apply for an immigrant visa
within one year following notification to the alien of the
availability of such visa, but the Secretary shall reinstate
the registration of any such alien who establishes
within 2 years following the date of notification of the
availability of such visa that such failure to apply was due
to circumstances beyond the alien’s control.
(h) Rules for determining whether certain aliens are
children.
(1) In general. For purposes of subsections (a)(2)
(A) and (d), a determination of whether an alien
satisfies the age requirement in the matter preceding
subparagraph (A) of section 101(b)(1) [8 USCS § 1101(b)
(1)] shall be made using—

41a
Appendix D
(A) the age of the alien on the date on which an
immigrant visa number becomes available for such
alien (or, in the case of subsection (d), the date on
which an immigrant visa number became available
for the alien’s parent), but only if the alien has
sought to acquire the status of an alien lawfully
admitted for permanent residence within one year
of such availability; reduced by
(B) the number of days in the period during which
the applicable petition described in paragraph (2)
was pending.
(2) Petitions described. The petition described in this
paragraph is—
(A) with respect to a relationship described in
subsection (a)(2)(A), a petition filed under section
204 [8 USCS § 1154] for classification of an alien
child under subsection (a)(2)(A); or
(B) with respect to an alien child who is a derivative
beneficiary under subsection (d), a petition filed
under section 204 [8 USCS § 1154] for classification
of the alien’s parent under subsection (a), (b), or (c).
(3) Retention of priority date. If the age of an alien is
determined under paragraph (1) to be 21 years of age
or older for the purposes of subsections (a)(2)(A) and
(d), the alien’s petition shall automatically be converted
to the appropriate category and the alien shall retain
the original priority date issued upon receipt of the
original petition.

42a
Appendix D
(4) Application to self-petitions. Paragraphs (1) through
(3) shall apply to self-petitioners and derivatives of selfpetitioners.

43a
Appendix D
8 USCS § 1324c
§ 1324c. Penalties for document fraud
(a) Activities prohibited. It is unlawful for any person or
entity knowingly—
(1) to forge, counterfeit, alter, or falsely make any
document for the purpose of satisfying a requirement
of this Act or to obtain a benefit under this Act,
(2) to use, attempt to use, possess, obtain, accept, or
receive or to provide any forged, counterfeit, altered,
or falsely made document in order to satisfy any
requirement of this Act or to obtain a benefit under
this Act,
(3) to use or attempt to use or to provide or attempt
to provide any document lawfully issued to or with
respect to a person other than the possessor (including
a deceased individual) for the purpose of satisfying a
requirement of this Act or obtaining a benefit under
this Act,
(4) to accept or receive or to provide any document
lawfully issued to or with respect to a person other
than the possessor (including a deceased individual) for
the purpose of complying with section 274A(b) [8 USCS
§ 1324a(b)] or obtaining a benefit under this Act, or
(5) to prepare, file, or assist another in preparing or
filing, any application for benefits under this Act, or any

44a
Appendix D
document required under this Act, or any document
submitted in connection with such application or
document, with knowledge or in reckless disregard of
the fact that such application or document was falsely
made or, in whole or in part, does not relate to the
person on whose behalf it was or is being submitted, or
(6) (A) to present before boarding a common carrier
for the purpose of coming to the United States a
document which relates to the alien’s eligibility to
enter the United States, and (B) to fail to present such
document to an immigration officer upon arrival at a
United States port of entry.
(b) Exception. This section does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United States,
a State, or a subdivision of a State, or of an intelligence
agency of the United States, or any activity authorized
under chapter 224 of Title 18, United States Code [18
USCS §§ 3521 et seq.].
(c) Construction. Nothing in this section shall be
construed to diminish or qualify any of the penalties
available for activities by this section but proscribed as
well in Title 18, United States Code.
(d) Enforcement.
(1) Authority in investigations. In conducting
investigations and hearings under this subsection—

45a
Appendix D
(A) immigration officers and administrative law
judges shall have reasonable access to examine
evidence of any person or entity being investigated,
(B) administrative law judges, may, if necessary,
compel by subpoena the attendance of witnesses
and the production of evidence at any designated
place or hearing, and
(C) immigration officers designated by the
Commissioner may compel by subpoena the
attendance of witnesses and the production of
evidence at any designated place prior to the filing
of a complaint in a case under paragraph (2).
In case of contumacy or refusal to obey a subpoena
lawfully issued under this paragraph and upon
application of the Attorney General, an appropriate
district court of the United States may issue an
order requiring compliance with such subpoena and
any failure to obey such order may be punished by
such court as a contempt thereof.
(2) Hearing.
(A) In general. Before imposing an order described
in paragraph (3) against a person or entity under
this subsection for a violation of subsection (a),
the Attorney General shall provide the person or
entity with notice and, upon request made within
a reasonable time (of not less than 30 days, as
established by the Attorney General) of the date
of the notice, a hearing respecting the violation.

46a
Appendix D
(B) Conduct of hearing. Any hearing so requested
shall be conducted before an administrative
law judge. The hearing shall be conducted in
accordance with the requirements of section 554
of Title 5, United States Code. The hearing shall
be held at the nearest practicable place to the
place where the person or entity resides or of the
place where the alleged violation occurred. If no
hearing is so requested, the Attorney General’s
imposition of the order shall constitute a final and
unappealable order.
(C) Issuance of orders. If the administrative law
judge determines, upon the preponderance of
the evidence received, that a person or entity has
violated subsection (a), the administrative law
judge shall state his findings of fact and issue and
cause to be served on such person or entity an order
described in paragraph (3).
(3) Cease and desist order with civil money penalty
[Caution: For inflation-adjusted civil monetary
penalties, see 8 CFR 270.3(b)(1)(ii).]. With respect
to a violation of subsection (a), the order under this
subsection shall require the person or entity to cease
and desist from such violations and to pay a civil
penalty in an amount of—
(A) not less than $250 and not more than $2,000
for each document that is the subject of a violation
under subsection (a), or

47a
Appendix D
(B) in the case of a person or entity previously
subject to an order under this paragraph, not less
than $2,000 and not more than $5,000 for each
document that is the subject of a violation under
subsection (a).
In applying this subsection in the case of a person
or entity composed of distinct, physically separate
subdivisions each of which provides separately for
the hiring, recruiting, or referring for employment,
without reference to the practices of, and not
under the control of or common control with,
another subdivision, each such subdivision shall be
considered a separate person or entity.
(4) Administrative appellate review. The decision and
order of an administrative law judge shall become
the final agency decision and order of the Attorney
General unless either (A) within 30 days, an official
delegated by regulation to exercise review authority
over the decision and order modifies or vacates the
decision and order, or (B) within 30 days of the date
of such a modification or vacation (or within 60 days of
the date of decision and order of an administrative law
judge if not so modified or vacated) the decision and
order is referred to the Attorney General pursuant
to regulations, in which case the decision and order
of the Attorney General shall become the final agency
decision and order under this subsection.
(5) Judicial review. A person or entity adversely
affected by a final order under this section may, within

48a
Appendix D
45 days after the date the final order is issued, file a
petition in the Court of Appeals for the appropriate
circuit for review of the order.
(6) Enforcement of orders. If a person or entity fails
to comply with a final order issued under this section
against the person or entity, the Attorney General
shall file a suit to seek compliance with the order in
any appropriate district court of the United States. In
any such suit, the validity and appropriateness of the
final order shall not be subject to review.
(7) Waiver by Attorney General. The Attorney General
may waive the penalties imposed by this section with
respect to an alien who knowingly violates subsection
(a)(6) if the alien is granted asylum under section 208 [8
USCS § 1158] or withholding of removal under section
241(b)(3) [8 USCS § 1251(b)(3)].
(e) Criminal penalties for failure to disclose role as
document preparer.
(1) Whoever, in any (2) Whoever, having been convicted
of a violation of paragraph (1), knowingly and willfully
prepares or assists in preparing an application for
immigration benefits pursuant to this Act, or the
regulations promulgated thereunder, whether or not
for a fee or other remuneration and regardless of
whether in any matter within the jurisdiction of the
Service, shall be fined in accordance with Title 18,
United States Code, imprisoned for not more than
15 years, or both, and prohibited from preparing or
assisting in preparing any other such application.

49a
Appendix D
(f) Falsely make. For purposes of this section, the term
“falsely make” means to prepare or provide an application
or document, with knowledge or in reckless disregard
of the fact that the application or document contains
a false, fictitious, or fraudulent statement or material
representation, or has no basis in law or fact, or otherwise
fails to state a fact which is material to the purpose for
which it was submitted.

50a
Appendix D
8 CFR 204.6
§ 204.6 Petitions for employment creation aliens.
(a) General. An EB-5 immigrant petition to classify an
alien under section 203(b) (5) of the Act must be properly
filed in accordance with the form instructions, with
the appropriate fee(s) , initial evidence, and any other
supporting documentation.
(b) [Reserved]
(c) Eligibility to file and continued eligibility. An alien
may file a petition for classification as an investor on his
or her own behalf.
(d) Priority date. The priority date of a petition for
classification as an investor is the date the completed,
signed petition (including all initial evidence and the
correct fee) is properly filed. The priority date of an
immigrant petition approved for classification as an
investor, including immigrant petitions whose approval
was revoked on grounds other than those set forth
below, will apply to any subsequently filed petition for
classification under section 203(b) (5) of the Act for which
the alien qualifies. A denied petition will not establish
a priority date. A priority date is not transferable to
another alien. In the event that the alien is the petitioner
of multiple immigrant petitions approved for classification
as an investor, the alien shall be entitled to the earliest
qualifying priority date. The priority date of an immigrant
petition approved for classification as an investor shall not

51a
Appendix D
be conferred to a subsequently filed petition if the alien
was lawfully admitted to the United States for permanent
residence under section 203(b) (5) of the Act using the
priority date of the earlier-approved petition or if at any
time USCIS revokes the approval of the petition based on:
(1) Fraud or a willful misrepresentation of a material
fact by the petitioner; or
(2) A determination by USCIS that the petition
approval was based on a material error.
(e) Definitions. As used in this section:
Capital means cash, equipment, inventory, other tangible
property, cash equivalents, and indebtedness secured by
assets owned by the alien entrepreneur, provided that the
alien investor is personally and primarily liable and that
the assets of the new commercial enterprise upon which
the petition is based are not used to secure any of the
indebtedness. All capital shall be valued at fair market
value in United States dollars. Assets acquired, directly or
indirectly, by unlawful means (such as criminal activities)
shall not be considered capital for the purposes of section
203(b) (5) of the Act.
Commercial enterprise means any for-profit activity
formed for the ongoing conduct of lawful business including,
but not limited to, a sole proprietorship, partnership
(whether limited or general) , holding company, joint
venture, corporation, business trust, or other entity
which may be publicly or privately owned. This definition

52a
Appendix D
includes a commercial enterprise consisting of a holding
company and its wholly-owned subsidiaries, provided that
each such subsidiary is engaged in a for-profit activity
formed for the ongoing conduct of a lawful business. This
definition shall not include a noncommercial activity such
as owning and operating a personal residence.
Employee means an individual who provides services
or labor for the new commercial enterprise and who
receives wages or other remuneration directly from the
new commercial enterprise. In the case of the Immigrant
Regional Center Program, “employee” also means an
individual who provides services or labor in a job which
has been created indirectly through investment in the new
commercial enterprise. This definition shall not include
independent contractors.
Full-time employment means employment of a qualifying
employee by the new commercial enterprise in a position
that requires a minimum of 35 working hours per week.
In the case of the Immigrant Regional Center Program,
“full-time employment” also means employment of a
qualifying employee in a position that has been created
indirectly through revenues generated from increased
exports resulting from the Regional Center Program
that requires a minimum of 35 working hours per week. A
job-sharing arrangement whereby two or more qualifying
employees share a full-time position shall count as fulltime employment provided the hourly requirement per
week is met. This definition shall not include combinations
of part-time positions even if, when combined, such
positions meet the hourly requirement per week.

53a
Appendix D
High employment area means a part of a metropolitan
statistical area that at the time of investment:
(i) Is not a targeted employment area; and
(ii) Is an area with an unemployment rate significantly
below the national average unemployment rates.
Invest means to contribute capital. A contribution of
capital in exchange for a note, bond, convertible debt,
obligation, or any other debt arrangement between
the alien investor and the new commercial enterprise
does not constitute a contribution of capital for the
purposes of this part.
New means established after November 29, 1990.
Qualifying employee means a United States citizen,
a lawfully admitted permanent resident, or other
immigrant lawfully authorized to be employed in
the United States including, but not limited to, a
conditional resident, a temporary resident, an asylee,
a refugee, or an alien remaining in the United States
under suspension of deportation. This definition does
not include the alien investor, the alien entrepreneur’s
spouse, sons, or daughters, or any nonimmigrant alien.
Regional center means any economic unit, public
or private, which is involved with the promotion of
economic growth, including increased export sales,
improved regional productivity, job creation, and
increased domestic capital investment.

54a
Appendix D
Regional Center Program means the program
established by Public Law 102-395, Section 610, as
amended.
Rural area means any area other than an area within
a standard metropolitan statistical area (as designated
by the Office of Management and Budget) or within the
outer boundary of any city or town having a population
of 20,000 or more based on the most recent decennial
census of the United States.
Targeted employment area means an area that, at the
time of investment, is a rural area or is designated as
an area that has experienced unemployment of at least
150 percent of the national average rate.
Troubled business means a business that has been in
existence for at least two years, has incurred a net
loss for accounting purposes (determined on the basis
of generally accepted accounting principles) during
the twelve- or twenty-four month period prior to the
priority date on the alien investor’s EB-5 immigrant
petition, and the loss for such period is at least equal
to twenty percent of the troubled business’s net
worth prior to such loss. For purposes of determining
whether or not the troubled business has been in
existence for two years, successors in interest to the
troubled business will be deemed to have been in
existence for the same period of time as the business
they succeeded.

55a
Appendix D
(f) Required amounts of capital.
(1) General. Unless otherwise specified, for EB-5
immigrant petitions filed on or after November 21, 2019,
the amount of capital necessary to make a qualifying
investment in the United States is one million eight
hundred thousand United States dollars ($1,800,000).
Beginning on October 1, 2024, and every five years
thereafter, this amount will automatically adjust for
petitions filed on or after each adjustment’s effective
date, based on the cumulative annual percentage
change in the unadjusted All Items Consumer Price
Index for All Urban Consumers (CPI-U) for the
U.S. City Average reported by the Bureau of Labor
Statistics, as compared to $1,000,000 in 1990. The
qualifying investment amount will be rounded down to
the nearest hundred thousand. DHS may update this
figure by publication of a technical amendment in the
Federal Register.
(2) Targeted employment area. Unless otherwise
specified, for EB-5 immigrant petitions filed on or after
November 21, 2019, the amount of capital necessary
to make a qualifying investment in a targeted
employment area in the United States is nine hundred
thousand United States dollars ($900,000) . Beginning
on October 1, 2024, and every five years thereafter,
this amount will automatically adjust for petitions
filed on or after each adjustment’s effective date,
to be equal to 50 percent of the standard minimum
investment amount described in paragraph (f) (1) of
this section. DHS may update this figure by publication
of a technical amendment in the Federal Register.

56a
Appendix D
(3) High employment area. Unless otherwise specified,
for EB-5 immigrant petitions filed on or after
November 21, 2019, the amount of capital necessary
to make a qualifying investment in a high employment
area in the United States is one million eight hundred
thousand United States dollars ($1,800,000). Beginning
on October 1, 2024, and every five years thereafter,
this amount will automatically adjust for petitions
filed on or after each adjustment’s effective date,
based on the cumulative annual percentage change
in the unadjusted All Items Consumer Price Index
for All Urban Consumers (CPI-U) for the U.S. City
Average reported by the Bureau of Labor Statistics
as compared to $1,000,000 in 1990. The qualifying
investment amount will be rounded down to the
nearest hundred thousand. DHS may update this
figure by publication of a technical amendment in the
Federal Register.
(g) Multiple investors —
(1) General. The establishment of a new commercial
enterprise may be used as the basis of a petition
for classification as an alien investor by more than
one investor, provided each petitioning investor has
invested or is actively in the process of investing
the required amount for the area in which the new
commercial enterprise is principally doing business,
and provided each individual investment results in the
creation of at least ten full-time positions for qualifying
employees. The establishment of a new commercial
enterprise may be used as the basis of a petition for

57a
Appendix D
classification as an alien investor even though there
are several owners of the enterprise, including persons
who are not seeking classification under section 203(b)
(5) of the Act and non-natural persons, both foreign
and domestic, provided that the source(s) of all capital
invested is identified and all invested capital has been
derived by lawful means.
(2) Employment creation allocation. The total number
of full-time positions created for qualifying employees
shall be allocated solely to those alien investors who
have used the establishment of the new commercial
enterprise as the basis for a petition. No allocation
must be made among persons not seeking classification
under section 203(b) (5) of the Act or among nonnatural persons, either foreign or domestic. USCIS
will recognize any reasonable agreement made among
the alien investors in regard to the identification and
allocation of such qualifying positions.
(h) Establishment of a new commercial enterprise.
The establishment of a new commercial enterprise may
consist of:
(1) The creation of an original business;
(2) The purchase of an existing business and
simultaneous or subsequent restr uctur ing or
reorganization such that a new commercial enterprise
results; or

58a
Appendix D
(3) The expansion of an existing business through
the investment of the required amount, so that a
substantial change in the net worth or number of
employees results from the investment of capital.
Substantial change means a 40 percent increase
either in the net worth, or in the number of employees,
so that the new net worth, or number of employees
amounts to at least 140 percent of the pre-expansion
net worth or number of employees. Establishment
of a new commercial enterprise in this manner does
not exempt the petitioner from the requirements of
8 CFR 204.6(j) (2) and (3) relating to the required
amount of capital investment and the creation of fulltime employment for ten qualifying employees. In the
case of a capital investment in a troubled business,
employment creation may meet the criteria set forth
in 8 CFR 204.6(j)(4)(ii) .
(i) Special designation of a high unemployment area.
USCIS may designate as an area of high unemployment
(at least 150 percent of the national average rate) a
census tract or contiguous census tracts in which the
new commercial enterprise is principally doing business,
and may also include any or all census tracts directly
adjacent to such census tract(s) . The weighted average
of the unemployment rate for the subdivision, based on
the labor force employment measure for each census
tract, must be at least 150 percent of the national average
unemployment rate.
(j) Initial evidence to accompany petition. A petition
submitted for classification as an alien entrepreneur must

59a
Appendix D
be accompanied by evidence that the alien has invested
or is actively in the process of investing lawfully obtained
capital in a new commercial enterprise in the United
States which will create full-time positions for not fewer
than 10 qualifying employees. In the case of petitions
submitted under the Immigrant Investor Pilot Program,
a petition must be accompanied by evidence that the alien
has invested, or is actively in the process of investing,
capital obtained through lawful means within a regional
center designated by the Service in accordance with
paragraph (m) (4) of this section. The petitioner may be
required to submit information or documentation that the
Service deems appropriate in addition to that listed below.
(1) To show that a new commercial enterprise has been
established by the petitioner in the United States, the
petition must be accompanied by:
(i) As applicable, articles of incorporation,
certificate of merger or consolidation, partnership
agreement, certificate of limited partnership, joint
venture agreement, business trust agreement, or
other similar organizational document for the new
commercial enterprise;
(ii) A certificate evidencing authority to do
business in a state or municipality or, if the form of
the business does not require any such certificate
or the State or municipality does not issue such a
certificate, a statement to that effect; or

60a
Appendix D
(iii) Evidence that, as of a date certain after
November 29, 1990, the required amount of capital
for the area in which an enterprise is located has
been transferred to an existing business, and
that the investment has resulted in a substantial
increase in the net worth or number of employees of
the business to which the capital was transferred.
This evidence must be in the form of stock purchase
agreements, investment agreements, certified
financial reports, payroll records, or any similar
instruments, agreements, or documents evidencing
the investment in the commercial enterprise and
the resulting substantial change in the net worth,
number of employees.
(2) To show that the petitioner has invested or is
actively in the process of investing the required
amount of capital, the petition must be accompanied
by evidence that the petitioner has placed the required
amount of capital at risk for the purpose of generating
a return on the capital placed at risk. Evidence of
mere intent to invest, or of prospective investment
arrangements entailing no present commitment, will
not suffice to show that the petitioner is actively in
the process of investing. The alien must show actual
commitment of the required amount of capital. Such
evidence may include, but need not be limited to:
(i) Bank statement(s) showing amount(s) deposited
in United States business account(s) for the
enterprise;

61a
Appendix D
(ii) Evidence of assets which have been purchased
for use in the United States enterprise, including
invoices, sales receipts, and purchase contracts
containing sufficient information to identify such
assets, their purchase costs, date of purchase, and
purchasing entity;
(iii) Evidence of property transferred from
abroad for use in the United States enterprise,
including U.S. Customs and Border Protection
commercial entry documents, bills of lading, and
transit insurance policies containing ownership
information and sufficient information to identify
the property and to indicate the fair market value
of such property;
(iv) Evidence of monies transferred or committed
to be transferred to the new commercial enterprise
in exchange for shares of stock (voting or nonvoting,
common or preferred) . Such stock may not include
terms requiring the new commercial enterprise to
redeem it at the holder’s request; or
(v) Evidence of any loan or mortgage agreement,
promissory note, security agreement, or other
evidence of borrowing which is secured by assets
of the petitioner, other than those of the new
commercial enterprise, and for which the petitioner
is personally and primarily liable.
(3) To show that the petitioner has invested, or
is actively in the process of investing, capital

62a
Appendix D
obtained through lawful means, the petition must be
accompanied, as applicable, by:
(i) Foreign business registration records;
(ii) Corporate, partnership (or any other entity
in any form which has filed in any country or
subdivision thereof any return described in this
subpart) , and personal tax returns including
income, franchise, property (whether real,
personal, or intangible) , or any other tax returns
of any kind filed within five years, with any taxing
jurisdiction in or outside the United States by or
on behalf of the petitioner;
(iii) Evidence identifying any other source(s) of
capital; or
(iv) Certified copies of any judgments or evidence of
all pending governmental civil or criminal actions,
governmental administrative proceedings, and
any private civil actions (pending or otherwise)
involv ing monetar y judg ments against the
petitioner from any court in or outside the United
States within the past fifteen years.
(4) Job creation —
(i) General. To show that a new commercial
enterprise will create not fewer than ten (10)
full-time positions for qualifying employees, the
petition must be accompanied by:

63a
Appendix D
(A) Documentation consisting of photocopies
of relevant tax records, Form I-9, or other
similar documents for ten (10) qualifying
employees, if such employees have already been
hired following the establishment of the new
commercial enterprise; or
(B) A copy of a comprehensive business plan
showing that, due to the nature and projected
size of the new commercial enterprise, the need
for not fewer than ten (10) qualifying employees
will result, including approximate dates, within
the next two years, and when such employees
will be hired.
(ii) Troubled business. To show that a new
commercial enterprise which has been established
through a capital investment in a troubled
business meets the statutory employment creation
requirement, the petition must be accompanied by
evidence that the number of existing employees
is being or will be maintained at no less than the
pre-investment level for a period of at least two
years. Photocopies of tax records, Forms I-9,
or other relevant documents for the qualifying
employees and a comprehensive business plan shall
be submitted in support of the petition.
(iii) Immigrant Investor Pilot Program. To show
that the new commercial enterprise located within
a regional center approved for participation in
the Immigrant Investor Pilot Program meets the

64a
Appendix D
statutory employment creation requirement, the
petition must be accompanied by evidence that the
investment will create full-time positions for not
fewer than 10 persons either directly or indirectly
through revenues generated from increased exports
resulting from the Pilot Program. Such evidence
may be demonstrated by reasonable methodologies
including those set forth in paragraph (m) (3) of
this section.
(5) Petitioner engagement. To show that the petitioner
is or will be engaged in the new commercial enterprise,
either through the exercise of day-to-day managerial
control or through policy formulation, the petition must
be accompanied by:
(i) A statement of the position Title that the
petitioner has or will have in the new enterprise
and a complete description of the position’s duties;
(ii) Evidence that the petitioner is a corporate
officer or a member of the corporate board of
directors; or
(iii) Evidence that the petitioner is engaged in
policy making activities. For purposes of this
section, a petitioner will be considered sufficiently
engaged in policy making activities if the petitioner
is an equity holder in the new commercial
enterprise and the organizational documents of the
new commercial enterprise provide the petitioner
with certain rights, powers, and duties normally

65a
Appendix D
granted to equity holders of the new commercial
enterprise’s type of entity in the jurisdiction in
which the new commercial enterprise is organized.
(6) If applicable, to show that the new commercial
enterprise has created or will create employment
in a targeted employment area, the petition must be
accompanied by:
(i) In the case of a rural area, evidence that the new
commercial enterprise is principally doing business
within an area not located within any standard
metropolitan statistical area as designated by the
Office of Management and Budget, nor within any
city or town having a population of 20,000 or more
as based on the most recent decennial census of
the United States; or
(ii) In the case of a high unemployment area:
(A) Evidence that the metropolitan statistical
area, the specific county within a metropolitan
statistical area, the county in which a city or
town with a population of 20,000 or more is
located, or the city or town with a population
of 20,000 or more outside of a metropolitan
statistical area, in which the new commercial
enterprise is principally doing business has
experienced an average unemployment rate
of at least 150 percent of the national average
rate; or

66a
Appendix D
(B) A description of the boundaries and the
unemployment statistics for the area for which
designation is sought as set forth in paragraph
(i) of this section, and the reliable method or
methods by which the unemployment statistics
were obtained.
(k) Decision. The petitioner will be notified of the decision,
and, if the petition is denied, of the reasons for the denial.
The petitioner has the right to appeal the denial to the
Administrative Appeals Office in accordance with the
provisions of part 103 of this chapter.
(l) [Reserved]
(m) Immigrant Investor Pilot Program —
(1) Scope. The Immigrant Investor Pilot Program
is established solely pursuant to the provisions of
section 610 of the Departments of Commerce, Justice,
and State, the Judiciary, and Related Agencies
Appropriation Act, and subject to all conditions and
restrictions stipulated in that section. Except as
provided herein, aliens seeking to obtain immigration
benefits under this paragraph continue to be subject
to all conditions and restrictions set forth in section
203(b) (5) of the Act and this section.
(2) Number of immigrant visas allocated. The annual
allocation of the visas available under the Immigrant
Investor Pilot Program is set at 300 for each of the five
fiscal years commencing on October 1, 1993.

67a
Appendix D
(3) Requirements for regional centers. Each regional
center wishing to participate in the Immigrant
Investor Pilot Program shall submit a proposal to
the Assistant Commissioner for Adjudications, which:
(i) Clearly describes how the regional center
focuses on a geographical region of the United
States, and how it will promote economic growth
through increased export sales, improved regional
productivity, job creation, and increased domestic
capital investment;
(ii) Provides in verifiable detail how jobs will be
created indirectly through increased exports;
(iii) Provides a detailed statement regarding
the amount and source of capital which has been
committed to the regional center, as well as a
description of the promotional efforts taken and
planned by the sponsors of the regional center;
(iv) Contains a detailed prediction regarding the
manner in which the regional center will have a
positive impact on the regional or national economy
in general as reflected by such factors as increased
household earnings, greater demand for business
services, utilities, maintenance and repair, and
construction both within and without the regional
center; and
(v) Is supported by economically or statistically
valid forecasting tools, including, but not limited to,

68a
Appendix D
feasibility studies, analyses of foreign and domestic
markets for the goods or services to be exported,
and/or multiplier tables.
(4) Submission of proposals to participate in the
Immigrant Investor Pilot Program. On August
24, 1993, the Service will accept proposals from
regional centers seeking approval to participate in
the Immigrant Investor Pilot Program. Regional
centers that have been approved by the Assistant
Commissioner for Adjudications will be eligible to
participate in the Immigrant Investor Pilot Program.
(5) Decision to participate in the Immigrant Investor
Pilot Program. The Assistant Commissioner for
Adjudications shall notify the regional center of his or
her decision on the request for approval to participate
in the Immigrant Investor Pilot Program, and, if the
petition is denied, of the reasons for the denial and of
the regional center’s right of appeal to the Associate
Commissioner for Examinations. Notification of denial
and appeal rights, and the procedure for appeal shall
be the same as those contained in 8 CFR 103.3.
(6) Continued participation requirements for regional
centers.
(i) Regional centers approved for participation in
the program must:
(A) Continue to meet the requirements of
section 610(a) of the Appropriations Act.

69a
Appendix D
(B) Provide USCIS with updated information
annually, and/or as otherwise requested by
USCIS, to demonstrate that the regional
center is continuing to promote economic
growth, including increased export sales,
improved regional productivity, job creation,
and increased domestic capital investment in
the approved geographic area, using a form
designated for this purpose; and
(C) Pay the fee provided by 8 CFR 103.7(b) (1)
(i) (XX) .
(ii) USCIS will issue a notice of intent to terminate
the designation of a regional center in the program
if:
(A) A regional center fails to submit the
information required in paragraph (m) (6) (i)
(B) of this section, or pay the associated fee; or
(B) USCIS determines that the regional center
no longer serves the purpose of promoting
economic growth, including increased export
sales, improved regional productivity, job
creation, and increased domestic capital
investment.
(iii) A notice of intent to terminate the designation
of a regional center will be sent to the regional
center and set forth the reasons for termination.

70a
Appendix D
(iv) The regional center will be provided 30 days
from receipt of the notice of intent to terminate to
rebut the ground or grounds stated in the notice
of intent to terminate.
(v) USCIS will notify the regional center of the final
decision. If USCIS determines that the regional
center’s participation in the program should be
terminated, USCIS will state the reasons for
termination. The regional center may appeal the
final termination decision in accordance with 8
CFR 103.3.
(vi) A regional center may elect to withdraw from
the program and request a termination of the
regional center designation. The regional center
must notify USCIS of such election in the form
of a letter or as otherwise requested by USCIS.
USCIS will notify the regional center of its decision
regarding the withdrawal request in writing.
(7) Requirements for alien entrepreneurs. An alien
seeking an immigrant visa as an alien entrepreneur
under the Immigrant Investor Pilot Program must
demonstrate that his or her qualifying investment
is within a regional center approved pursuant to
paragraph (m) (4) of this section and that such
investment will create jobs indirectly through revenues
generated from increased exports resulting from the
new commercial enterprise.

71a
Appendix D
(i) Exports. For purposes of paragraph (m) of
this section, the term “exports” means services
or goods which are produced directly or indirectly
through revenues generated from a new commercial
enterprise and which are transported out of the
United States;
(ii) Indirect job creation. To show that 10 or
more jobs are actually created indirectly by
the business, reasonable methodologies may be
used. Such methodologies may include multiplier
tables, feasibility studies, analyses of foreign and
domestic markets for the goods or services to be
exported, and other economically or statistically
valid forecasting devices which indicate the
likelihood that the business will result in increased
employment.
(8) Time for submission of petitions for classification as
an alien entrepreneur under the Immigrant Investor
Pilot Program. Commencing on October 1, 1993,
petitions will be accepted for filing and adjudicated
in accordance with the provisions of this section if the
alien entrepreneur has invested or is actively in the
process of investing within a regional center which
has been approved by the Service for participation in
the Pilot Program.
(9) Effect of termination of approval of regional
center to participate in the Immigrant Investor Pilot
Program. Upon termination of approval of a regional
center to participate in the Immigrant Investor Pilot

72a
Appendix D
Program, the director shall send a formal written
notice to any alien within the regional center who
has been granted lawful permanent residence on a
conditional basis under the Pilot Program, and who
has not yet removed the conditional basis of such
lawful permanent residence, of the termination of the
alien’s permanent resident status, unless the alien can
establish continued eligibility for alien entrepreneur
classification under section 203(b) (5) of the Act.
(n) Offering amendments or supplements. Amendments
or supplements to any offering necessary to maintain
compliance with applicable securities laws based upon
changes to this section effective on November 21, 2019
shall not independently result in denial or revocation of
a petition for classification under section 203(b) (5) of the
Act, provided that the petitioner:
(1) Filed the petition for classification under section
203(b) (5) of the Act prior to November 21, 2019;
(2) Was eligible for classification under 203(b) (5) of
the Act at the time the petition was filed; and
(3) Is eligible for classification under 203(b) (5) of the
Act, including having no right to withdraw or rescind
the investment or commitment to invest into such
offering, at the time of adjudication of the petition.

73a
Appendix D
Cal Civ Code § 1550
§ 1550. Essential elements of contract
It is essential to the existence of a contract that there
should be:
1. Parties capable of contracting;
2. Their consent;
3. A lawful object; and,
4. A sufficient cause or consideration.

74a
Appendix D
Cal Civ Code § 1596
§ 1596. Requisites of object
The object of a contract must be lawful when the contract
is made, and possible and ascertainable by the time the
contract is to be performed.

75a
Appendix D
Cal Civ Code § 1598
§ 1598. When contract wholly void
Where a contract has but a single object, and such object is
unlawful, whether in whole or in part, or wholly impossible
of performance, or so vaguely expressed as to be wholly
unascertainable, the entire contract is void.

76a
E
APPENDIX E — Appendix
AGREEMENT
TO FORM A
CALIFORNIA LIMITED LIABILITY COMPANY

AGREEMENT TO FORM A CALIFORNIA
LIMITED LIABILITY COMPANY
This Agreement made the 18th day September, 2004 by and
between Robert T. Chui and Charles D. Cobb, individuals
and franchisees of Burger King Corporation, (hereafter
referred to as Franchisees), and Jui-Chien Lin, individual,
(hereafter referred to as Investor).
WHEREAS, Franchisees are in the business of owning
and operating Burger King restaurants in Southern
California;
WHEREAS, Franchisees and Investor desire to pool their
financial resource, expertise, capabilities and investments
in the form of a California Limited Company, (hereafter
referred as to LLC), to construct and operate a Burger
King or similar concept of fast food restaurant (hereafter
to the Restaurant), located in San Bernardino County,
California.
WHEREAS, Investor wishes to invest to the LLC in
the amount of One Million Dollars ($1,000,000.00) for the
purpose of obtaining permanent residency in the United
State for himself, and immediate member(s) of the family,
under the investor provision of Immigration and National
Law of the United States;

77a
Appendix E
The parties agree as follows:
1.

Purpose

Franchisees and Investor agree to form a California
Limited Liability company for the purpose of constructing
and operating the Restaurant, located in San Bernardino
County, California and also for the purpose of facilitating
Investor’s interest in obtaining U.S. permanent residency.
2.

Investment Plan
Each party shall contribute to the capital of the LLC
as the party’s capital contribution. The money and/
or services contributed as follows:

Name
Jui-Chien Lin
Robert T. Chiu

Contribution
$1,000,000.00
Franchise right;
Operating experience
Charles D. Cobb Franchise right;
Operating experience
3.

Percentage
30%
35%
35%

Term
The term of this Agreement shall be for five (5)
years starting when Investor deposits the funds
of $1,000,000.00 into the bank account of the LLC.
Thereafter, the term of this Agreement may be
extended only upon mutual consent and agreement of
both parties. Terms and conditions of extension may
only be made upon mutual consent and agreement
of both parties.

78a
Appendix E
4.

Profit and Loss of the LLC
All net profits derived from the business of the
LLC shall be considered the management fee of
Franchisees. Franchisees shall also bear the loss of
the business of the LLC, if any. Investor shall have
no right to claim any of the revenues derived from
the business of the LLC, however, LLC agrees to pay
Investor the sum of $40,000.00 per year, to be paid
quarterly, during 4th and 5th year of this agreement.
Franchisees shall be responsible for taxes of the
LLC, included but not limited to the tax based on
ordinary income of the LLC.

5.

Buy Back Term
Unless otherwise provided in this agreement,
Investor agrees to sell or transfer his interest in the
LLC at the end of this Agreement and may only sell
or transfer his interest to Franchisees at a fixed price
of $1,000,000.00. Investor may not sell or transfer
his interest in the LLC during the terms of this
Agreement. Any attempted transfer of any portion
or all of such interest is in violation of the prohibition
contained in this Article, and shall be deemed invalid,
null and void, and of no force or effect. At the end of
the five (5) years term, Franchisees are obligated to
purchase all of Investor’s interest for a fixed price of
$1,000,000.00. Such payment shall be made by check
or money order on the fifth anniversary of the date of
actual funding of Investment. Upon mutual consent
and agreement of both parties, the Franchisees may
delay to buy the Investor’s interest back at the end

79a
Appendix E
of this Agreement, however, the Franchisees shall
bear then legal interest upon tender of $1,000,000.00
payment.
6.

Management of the LLC
The LLC shall be managed by Franchisees.
Franchisees shall provide quarterly Financial and
Profit/Loss statements of the LLC to the Investor
for review purpose.

7.

LLC shall, at its own cost and expenses, during the
entire term, secure and maintain a comprehensive
coverage policy of public liability insurance to insure
the Restaurant against loss and liability cause by or
connected with restaurant operation and use of its
premises.

8.

Franchisees agree to indemnify and hold Investor and
the property of Investor, including the Restaurant,
free and harmless from all Liability for any debts,
obligations, or claims arising for or connected of
Restaurant managed by Franchisees. Franchisees
any not use the Restaurant as collateral to obtain any
kind of loans during the term of the Agreement.
Should any litigation be commenced between the
parties concerning the Agreement, or the rights
and duties of either in relation thereto, the party,
prevailing in such litigation shall be entitled, in
additional to such other relief as may be granted
in the litigation, to a reasonable sum as and for

80a
Appendix E
his attorney’s fees in such litigation which shall be
determined by the Court in such litigation or in a
separate action brought for this purpose.
9.

The Agreement shall be binding on the shall intre to
the benefit of the heirs, executors, administrators,
successors, and assigns of the parties hereto.

IN WITNESS WHEREOF, the parties have executed,
or caused the Agreement of the executed as of the date
first above written.
Investor

Franchisees and Individual

/s/
Jui-Chien Lin

/s/
Robert T. Chui

Witness
/s/
Cecilia Yu
Attorney at Law

/s/
Charles D. Cobb

